<html>
<title></title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                  
                         [H.A.S.C. No. 115-92]

                       STATE AND NON-STATE ACTOR

                         INFLUENCE OPERATIONS:

                          RECOMMENDATIONS FOR

                         U.S. NATIONAL SECURITY

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             MARCH 21, 2018


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-562 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------

                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Fifteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
JOE WILSON, South Carolina           ROBERT A. BRADY, Pennsylvania
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
MIKE ROGERS, Alabama                 JIM COOPER, Tennessee
BILL SHUSTER, Pennsylvania           MADELEINE Z. BORDALLO, Guam
K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
DOUG LAMBORN, Colorado               NIKI TSONGAS, Massachusetts
ROBERT J. WITTMAN, Virginia          JOHN GARAMENDI, California
DUNCAN HUNTER, California            JACKIE SPEIER, California
MIKE COFFMAN, Colorado               MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
MO BROOKS, Alabama                   DONALD NORCROSS, New Jersey
PAUL COOK, California                RUBEN GALLEGO, Arizona
JIM BRIDENSTINE, Oklahoma            SETH MOULTON, Massachusetts
BRAD R. WENSTRUP, Ohio               COLLEEN HANABUSA, Hawaii
BRADLEY BYRNE, Alabama               CAROL SHEA-PORTER, New Hampshire
SAM GRAVES, Missouri                 JACKY ROSEN, Nevada
ELISE M. STEFANIK, New York          A. DONALD McEACHIN, Virginia
MARTHA McSALLY, Arizona              SALUD O. CARBAJAL, California
STEPHEN KNIGHT, California           ANTHONY G. BROWN, Maryland
STEVE RUSSELL, Oklahoma              STEPHANIE N. MURPHY, Florida
SCOTT DesJARLAIS, Tennessee          RO KHANNA, California
RALPH LEE ABRAHAM, Louisiana         TOM O'HALLERAN, Arizona
TRENT KELLY, Mississippi             THOMAS R. SUOZZI, New York
MIKE GALLAGHER, Wisconsin            JIMMY PANETTA, California
MATT GAETZ, Florida
DON BACON, Nebraska
JIM BANKS, Indiana
LIZ CHENEY, Wyoming
JODY B. HICE, Georgia

                      Jen Stewart, Staff Director
                         Tim Morrison, Counsel
                      William S. Johnson, Counsel
                         Britton Burkett, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Breedlove, Gen Philip M., USAF (Ret.), Former Commander, U.S. 
  European Command...............................................     4
Garnaut, John, Former Senior Adviser to Australian Prime Minister 
  Malcolm Turnbull...............................................     7
Lumpkin, Hon. Michael D., Former Assistant Secretary of Defense 
  for Special Operations and Low-Intensity Conflict, U.S. 
  Department of Defense, and Former Special Envoy and Coordinator 
  of the Global Engagement Center, U.S. Department of State......     9

                                APPENDIX

Prepared Statements:

    Breedlove, Gen Philip M......................................    56
    Garnaut, John................................................    62
    Lumpkin, Hon. Michael D......................................    76
    Smith, Hon. Adam.............................................    54
    Thornberry, Hon. William M. ``Mac''..........................    53

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Banks....................................................    89
    Mr. Langevin.................................................    89
    Mr. Scott....................................................    89
                  
.                  
                  STATE AND NON-STATE ACTOR INFLUENCE

                    OPERATIONS: RECOMMENDATIONS FOR

                         U.S. NATIONAL SECURITY

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Wednesday, March 21, 2018.
    The committee met, pursuant to call, at 10:03 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    Let me welcome and appreciate our witnesses for being here, 
as well as members and guests.
    Whether the term used is ``political warfare,'' ``influence 
operations,'' ``psycho-cultural warfare,'' ``indirect 
warfare,'' ``hybrid warfare,'' or one of the many others that 
have been suggested, it is clear that the United States and our 
allies are under consistent attack using non-kinetic tactics 
designed to undermine and weaken us.
    We know that Russia intervened in a variety of ways to sow 
dissension during the 2016 election. History and now 
declassified documents establish that the former Soviet Union 
had a track record of active measures against NATO's [North 
Atlantic Treaty Organization's] deployment of intermediate-
range missiles in Europe, for example, and those active 
measures included providing propaganda themes to peace movement 
groups, as well as organizational expertise, financial 
resources, forged U.S. military documents, et cetera, et 
cetera.
    And according, again, to declassified CIA [Central 
Intelligence Agency] documents, that campaign was built upon a 
similar campaign they carried out against a proposed neutron 
bomb deployment in 1977 and 1978.
    The point is it is all part of a standard playbook, and we 
should expect more of the same, including against decisions 
called for, for example, in the Nuclear Posture Review.
    While most of the attention has been centered on Russia as 
a source of these attacks, they are not the only adversary 
using such methods. China has spent billions of dollars to gain 
economic leverage, buy access to infrastructure, and shape 
public opinion and perceptions around the world to its 
advantage. Iran, various terrorist organizations, and even 
North Korea make use of them as well.
    These tactics challenge our traditional ways of thinking 
about warfare. They challenge our organizational structure on 
who is responsible for defending the country in this sphere. 
And they challenge our ability to develop and use tools needed 
to deal with them in a timely way.
    As the National Defense Strategy says, ``China and Russia 
want to shape a world consistent with their authoritarian 
model--gaining veto authority over other nations' economic, 
diplomatic, and security decisions.'' And that was a quote. It 
is important for us to identify the motive behind these 
efforts, but the question remains whether we have the tools, 
the organizations, and the approaches to protect American 
sovereignty and national security.
    We hope to gain insight into these issues from our 
distinguished panel of witnesses, but first, let me yield to 
the ranking member for any comments he would like to make.
    [The prepared statement of Mr. Thornberry can be found in 
the Appendix on page 53.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. I agree substantially 
with all of your remarks about the importance of this.
    It is a fairly simple process, and we are kind of failing 
at every level right now, in terms of our information 
operations. I mean, first of all, if you are going to engage in 
an information operation, you need to know what your message 
is. What is our message? What is it we are trying to convey? 
How are we trying to influence people?
    Now, I think there are a couple very large issues there. 
One, we want to promote economic and political freedom as the 
ideal form of government and push that forward. We have not 
been conveying that message particularly well.
    And I think the second piece is to counter extremism--and 
all forms of extremism. Certainly we are familiar with ISIS 
[Islamic State of Iraq and Syria] and Al Qaeda, but they are 
not alone in their extremist views. And it is not just 
peculiarly people who bastardize the Islamic religion; it 
happens in other religions and other ideologies as well.
    So we need to be against extremism and for political and 
economic freedom. How do we communicate that? Well, to begin 
with, like I said, I don't think we have even sort of settled 
on that message. And then, second, once you decide what your 
message is, you have got to decide who your audience is. Who 
are we trying to persuade? And I think most important in that 
is, how do those people get their information?
    So, ideally, if we have an information operation going on, 
we have got a message, we have an audience, and we have 
delivery mechanisms. And what has become clear is that the 
delivery mechanism right now is over the internet, is social 
media platforms, whether it is Facebook or YouTube or Twitter. 
That is what drives messages out there that get to people.
    And, if nothing else, I hope that what the Russians have 
helped do is make us aware of how that works. I mean, because I 
think there was an understanding that the internet was 
obviously a brand-new form of messaging here a couple decades 
ago, but we never really figured out how to use it exactly.
    The Russians figured out how to use it. They figured out 
how to say, okay, this is our message, we are going to get it 
on the internet and get it on there in a way that it spreads. 
Part of that is setting up the bots, the automatic, you know, 
retweeting and sending out of information, but, beyond that, 
identifying sympathetic people. So you don't even have to do it 
through, sort of, fake or the bot approach; you simply find 
sympathetic people and then make sure you get your message to 
them and make sure that they spread it. The Russians have 
figured out how to weaponize the internet in an information 
campaign in a way that we did not.
    We now have a template, as they, you know--I don't have any 
problem with imitating the Russians in terms of making use of 
these platforms. They have shown us how to do it. Now we just 
need to do it.
    But we are not committed to that. And I think the largest 
problem is--there is a lot of commitment in this room. I think 
the members of this committee, I think the Members of 
Congress--you know, I haven't heard too many Democrats or 
Republicans who don't completely agree with all of this. What 
is missing is the executive branch. And they are really rather 
important in this.
    The State Department, as near as I can tell, isn't even 
really engaging in an information campaign. And I know the 
Pentagon is trying, but this has to be a whole-of-government 
approach if we are going to be effective at it. And I think 
USAID [U.S. Agency for International Development] and some of 
our development efforts are important in delivering this 
message. And we are not there.
    Now, I will just briefly touch on the sensitive topic 
before stopping, and that is it starts with the President. The 
President has been unwilling to do this.
    Now, we can guess at a lot of different reasons for that. 
It seems like he is really worried about admitting at how good 
the Russians are at this for fear that somehow it will taint 
his election. As a Democrat, I want to say he won, okay? I 
don't question that at all, and really whatever any of his 
campaign officials were doing, what the Russians did matters 
just because they did it, even if there, you know, was or 
wasn't any collusion. We have got to engage in that. We have 
got to get the White House to decide that this is important and 
to engage.
    More troubling is that the President doesn't seem to agree 
with the first part of that message that I said, that economic 
and political freedom matter.
    Now, he got a lot of grief here recently for calling up 
President Putin and congratulating him on his election, which 
as--John McCain said it better than anybody. You know, the 
leader of the free world doesn't call up, you know, a dictator 
and congratulate him on winning a sham election. But it sort of 
undermines the political freedom message.
    But more troubling to me was last year when the President 
called up President Erdogan in Turkey to congratulate him on 
the success of the constitutional referendum that they passed. 
And the constitutional referendum that they passed was to clamp 
down on opposition, was to consolidate authoritarian power.
    So does the President of the United States even agree with 
the message that political and economic freedom are things that 
we are supposed to promote?
    And I understand it is complicated. There are times where 
we face threats. We have allies like Saudi Arabia and Egypt and 
elsewhere that are not necessarily engaging in what we want 
them to. How do you balance that? It is difficult.
    But right now it doesn't seem like the White House is 
trying to balance it. They seem to be perfectly content to 
support the authoritarian approach. That is troubling, and we 
need to change that.
    With that, I yield back and look forward to the testimony.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 54.]
    The Chairman. Let me welcome our distinguished panel of 
witnesses.
    We have General Philip Breedlove, former Commander of U.S. 
European Command and Supreme Allied Commander of NATO; Mr. John 
Garnaut, who is former senior adviser to Australian Prime 
Minister Malcolm Turnbull; and Honorable Michael Lumpkin, who 
is a former Assistant Secretary of Defense for Special 
Operations and Low-Intensity Conflict as well as coordinator of 
the Global Engagement Center at the U.S. State Department.
    Just because I mentioned a few formers doesn't mean these 
guys don't have a lot more in their bio, which was provided to 
all members.
    Without objection, your full written statements will be 
made part of the record, and we would be pleased to hear any 
opening comments each of you would like to make.
    General Breedlove, the floor is yours.

   STATEMENT OF GEN PHILIP M. BREEDLOVE, USAF (RET.), FORMER 
                COMMANDER, U.S. EUROPEAN COMMAND

    General Breedlove. Good morning, and thank you, Chairman 
Thornberry, Ranking Member Smith, and other members of the 
committee, for the opportunity to speak with you about Russian 
interference in democratic processes.
    The Russian interference in the 2016 U.S. Presidential 
election is deeply troubling but not surprising. It is up to us 
as Americans to acknowledge the threats that Russian 
disinformation provides and to develop the effective strategies 
needed to combat them.
    This weaponization of information by Russia is not new, as 
you have mentioned. In fact, it dates back to the Soviet Union. 
In 1983, a pro-Soviet newspaper in India published an article 
accusing the Department of Defense of creating AIDS [acquired 
immunodeficiency syndrome] in an attempt to develop new 
biological weapons. In 1964, the KGB [Russian Committee for 
State Security] used similar tactics in an effort to convince 
the Indonesian President that there was a CIA plot to 
assassinate him.
    The primary differences between these disinformation 
campaigns and those of today is twofold. First, the internet 
and social media, as you have stated, make it so much easier to 
spread disinformation. And, secondly, these campaigns are 
increasingly targeting first-world Western nations.
    Russia took full advantage of this new media landscape by 
promoting disinformation to sow discontent among Americans. It 
exploited divides in the American populace to promote what many 
have referred to as culture war. Surveys have shown that the 
U.S. is more polarized than it has ever been on issues such as 
gun control, immigration, religion, and race.
    And Russian operatives, seeing an opportunity, have 
purchased social media advertisements and created profiles in 
order to promote partisan instances on their issues to further 
widen those riffs. Russian advertisements and profiles did not 
have a consistent political position. The only consistent 
aspect is that they all promoted partisan positions on 
immensely divisive issues.
    The details of Russia's interference in the election are 
maddening; however, the reality is that we should not be 
surprised by this interference. The Russians have interfered 
with numerous elections in Western nations recently, including 
those in the Netherlands, Germany, and France.
    There is increasing evidence that Russia worked to 
influence the referendum in which the U.K. [United Kingdom] 
decided to leave the European Union [EU], as recently shown in 
a Senate Foreign Relations Committee report. It has promoted 
anti-immigration sentiment in Europe by creating and spreading 
the story of ``Poor Lisa,'' a 13-year-old girl who, as the 
fallacious story goes, was abducted and raped by migrants.
    Further, we ourselves have meddled in elections in our own 
way, and we have to face those facts. In 1953, Allen Dulles 
offered $5 million to an agent to sway the Filipino elections. 
In 1958, Operation Booster Shot encouraged rural Laotian 
farmers to vote against communist politicians in Laos.
    Our meddling did not end with the Cold War. In the 2006 
Palestinian elections in Gaza, the United States provided 
economic assistance in an attempt to bolster Fatah's chances. 
The reality is that both the United States and Russia have 
meddled, and we should not be surprised if the trend continues.
    What is astounding about Russian meddling is how brazen 
Russia has been in executing it, as well as the fact that 
Russia seems to believe that it can escape this with its 
reputation unsullied. Russia appears to be surprised by the 
outrage that has been seen throughout the U.S. The U.S. has 
been a leader and a pillar of Western democracy, and the fact 
that Russia believed that it could interfere with American 
elections with no response is what is shocking to me.
    However, Russia's interference in the 2016 U.S. 
Presidential election is merely a symptom of a larger hybrid 
war against the West, in which economic, cyber, and 
disinformation tactics are used in conjunction with 
conventional forces in order to exert force or pressure on an 
adversary.
    In February 2013, General Valery Gerasimov, chief of the 
general staff of the Armed Forces of Russia, gave a speech 
entailing this strategy. He claimed, ``The very rules of war 
have changed. The role of nonmilitary means in achieving 
political and strategic goals has grown. In many cases, they 
have exceeded the power of force of weapons in their 
effectiveness. The focus of applied methods of conflict has 
altered the direction of the broad use of political, economic, 
informational, humanitarian, and other nonmilitary measures, 
applied in coordination with the protest potential of the 
population.''
    This has led to the coining of the term the ``Gerasimov 
Doctrine.'' This describes Russia's view that warfare is not 
simply a conventional affair but one that uses the 
aforementioned cyber, economic, and information tactics. This 
is notable because it shows Russia acknowledges that its 
election meddling is a form of warfare. While Russia may deny 
that it interferes with elections or claim that it is 
innocuous, the words of General Gerasimov ring loud and clear: 
Disinformation efforts are efforts of warfare.
    The reality is that Russia is using hybrid tactics to 
target Western values, democratic governments, and 
transatlantic institutions. President Vladimir Putin claimed in 
a state of the nation address that the collapse of the Soviet 
Union was a major geopolitical disaster in the 20th century.
    Russia sees the West, and in particular a unified West, as 
an adversary. Waging a conventional war against the West would 
be unfavorable to Russia. As such, it has used hybrid warfare 
to break up Western unity.
    Exploiting divisions in U.S. society and promoting a 
culture war is one key element of Moscow's efforts to weaken 
the West. Through disinformation, it has plied differences in 
Europe to promote Euroscepticism and to grow the notion among 
the peoples of Europe that the EU is not beneficial. It has 
waged cyberattacks, such as the NotPetya attack in Ukraine in 
2017, the Fancy Bear attack of German members of parliament 
earlier this month, or the numerous distributed denial-of-
service attacks on the Estonian Government.
    It has used economic subversion to exploit the relatively 
smaller economies of neighbors to subvert political power. 
Russia uses its vast energy resources to promote the dependence 
of its smaller neighbors, working to keep them in a Russian 
sphere of influence and preventing them from turning to the 
West.
    The Russian interference in the 2016 U.S. Presidential 
election has received an unprecedented amount of media 
coverage. However, we should not be so limited as to see this 
interference in a vacuum. In order to effectively combat this 
interference, we need to understand the scope of Russian hybrid 
warfare. We need to view this as a comprehensive problem that 
connects the dots of recent Kremlin activity. We cannot simply 
take a stance against a specific case of election interference; 
we must take a stance against Russian hybrid warfare in its 
entirety.
    In all the cases of Russian disinformation and election 
interference, the West has been slow to see it and even slower 
to react. We need to move past simply trying to formulate a 
reaction to interference in this election, and we need to move 
to a place where we are ready to combat hybrid warfare and get 
past reacting.
    Hybrid warfare is a form of warfare that the United States 
has yet to fully understand, never mind prepare for. The 
revelation of Russian disinformation in the election is a wake-
up call that hybrid warfare is occurring, even if we are 
unwitting.
    Simply condemning the election meddling is not going to 
solve the problem, and it is not going to prevent future 
Russian hybrid operations. We must treat this with the gravity 
that it deserves. We need to take a position, establish policy, 
and then execute it.
    The Russian hybrid threat is larger than the election and 
larger than the United States. It is a threat to the liberal 
order that the West has become accustomed to, and it will 
continue to be until we develop an effective strategy and 
implement the necessary policies to combat it.
    Sir, thank you, and I look forward to your questions.
    [The prepared statement of General Breedlove can be found 
in the Appendix on page 56.]
    The Chairman. Thank you.
    Mr. Garnaut.

STATEMENT OF JOHN GARNAUT, FORMER SENIOR ADVISER TO AUSTRALIAN 
                PRIME MINISTER MALCOLM TURNBULL

    Mr. Garnaut. Thank you, Chairman Thornberry and Ranking 
Member Smith, distinguished members. Thank you for having me 
along today.
    Is this microphone okay?
    The Chairman. If you could just speak directly into it, 
because it is directional, and so if it is off to the side, it 
doesn't work as well.
    Mr. Garnaut. Sure. Thank you.
    To understand the mechanics of China's international 
influence, we have to look beyond the gravitational pull of the 
Chinese economy and the warfighting power of the People's 
Liberation Army. That is what we usually focus on, and they are 
both important, but, to me, the more interesting and the more 
important space is in between those two poles, and that is the 
space of influence and interference.
    This is the space where the Chinese Communist Party 
manipulates incentives inside our countries in order to shape 
the conversation, manipulate perceptions, and tilt the 
political and strategic landscape to its advantage.
    The party works relentlessly to find common interests and 
cultivate relationships of dependency with its chosen partners. 
The modus operandi is to offer privileged access, to build 
personal rapport, and then to reward those who deliver. From 
open-source materials, we can see this happening in 
universities, in business communities, in ethnic Chinese 
diaspora communities, in media and entertainment, and also in 
politics and government itself.
    But the institutions and ideologies and the methodologies 
are so alien to our systems, we are having trouble seeing it, 
let alone responding to it. The party has, to use its own 
terms, been winning without fighting.
    However, under the uncompromising leadership of President 
Xi Jinping, China's activities have become so brazen and so 
aggressive that we can't ignore it any longer. A reevaluation 
is taking place across half a dozen democracies in the world, 
including the United States and Australia, and this 
conversation is now taking root in many other countries as 
well.
    I have described the Australian experience in an article 
this month in Foreign Affairs magazine, which I have attached 
to my written submission. I won't duplicate that here, but I 
want to underscore what I think is the most important message 
from the Australian experience. And that is the importance of 
having analytical clarity, of working with principles, and 
responding with strategy.
    Our challenge, and the challenge of democracies across the 
world, is to work with the strengths and shore up the 
vulnerabilities of our open, multicultural, democratic systems. 
We need a rigorous and principled approach that is capable of 
supporting a broad and durable consensus within countries and 
between countries. We need to conceptually separate the black, 
the covert, from the white and recognize that there is a large 
gray area of ambiguity and plausible deniability that sits in 
between.
    This process requires a great deal of empirical work, both 
in and outside government. But once we have the empirical 
baseline and we have worked out which activities we care about 
and how much we care, then we can start to formulate and design 
a surgical response that manages the risks and targets the harm 
without harming ourselves.
    In my view, we should continue to welcome ordinary 
diplomacy and public diplomacy and economic activity that does 
not come with strings attached. But wherever there is covert, 
corrupting, or coercive behavior, when the legitimate and 
transparent influence processes cross the line into harmful 
interference, then we need to be uncompromising, ourselves.
    Shutting down the black--the covert, the coercive, the 
corrupting--is primarily a counterintelligence and law 
enforcement challenge, a very big one, but it won't be enough 
on its own. We also have to build transparency and 
accountability mechanisms to illuminate the gray. We need to 
reinforce and reactivate the natural antibodies of our civil 
societies, the natural antibodies that the party, the Communist 
Party, has been working to suppress and, in some cases, 
disable.
    In Australia, the Turnbull government has been developing a 
counter-interference strategy that is built upon the principles 
of sunlight, enforcement, deterrence, and capability. The 
strategy is country-agnostic in that it is designed to apply to 
any country that misbehaves, not just China. And the strategy 
includes new legislation that is targeted at both the black and 
the gray.
    One set of laws introduces tough but graduated criminal 
provisions against political interference and espionage. 
Another set of laws imposes disclosure obligations for those 
working in Australian politics on behalf of a foreign 
principal. This is an updated transparency regime which is 
loosely modeled on your Foreign Agents Registration Act.
    Importantly, enforcement activities are also being brought 
within a central, integrated hub.
    But this is only the very early stages of a long struggle 
to reinforce the integrity of our democratic processes. There 
is an enormous body of work that needs to be done, and I am 
looking forward to this discussion.
    [The prepared statement of Mr. Garnaut can be found in the 
Appendix on page 62.]
    The Chairman. Thank you.
    Mr. Lumpkin.

    STATEMENT OF HON. MICHAEL D. LUMPKIN, FORMER ASSISTANT 
 SECRETARY OF DEFENSE FOR SPECIAL OPERATIONS AND LOW-INTENSITY 
CONFLICT, U.S. DEPARTMENT OF DEFENSE, AND FORMER SPECIAL ENVOY 
     AND COORDINATOR OF THE GLOBAL ENGAGEMENT CENTER, U.S. 
                      DEPARTMENT OF STATE

    Mr. Lumpkin. Chairman Thornberry, Ranking Member Smith, and 
distinguished members of the committee, thank you for the 
opportunity today to address you on the topic of state and non-
state actor influence operations.
    I believe the Congress has correctly identified such 
information operations as an ongoing and persistent threat to 
U.S. national security interests. Unfortunately, based on my 
previous experience in government, I am similarly convinced 
that we have quite a ways to go before we actually get it right 
in order to protect and defend those national interests in the 
modern information environment.
    Since the end of the Cold War with the Soviet Union, which 
arguably was the last period in history when the U.S. 
successfully engaged in sustained information warfare and 
counter-state propaganda efforts, advances in technology have 
enabled instantaneous global communications. We are living in a 
hyperconnected world, where the flow of information moves 
across borders in real time and across traditional and social 
media platforms.
    The lines of authority and effort between public diplomacy, 
public affairs, and information warfare have blurred to the 
point where, in many cases, information is consumed by U.S. and 
foreign audiences at the same time via the same methods.
    While the means and methods of communication have 
transformed dramatically, most of the laws and policies 
governing how the U.S. Government responds to sophisticated 
operations and disinformation campaigns by foreign adversaries 
have remained largely unchanged. It is true there has been some 
tinkering, there has been some tweaking, but nothing 
substantive or transformational. Simply put, our institutions 
have not kept pace with the evolving threats.
    Antiquated bureaucratic structures and traditional lines of 
authority remain a significant impediment to progress. To date, 
there is not a single individual in the United States 
Government below the President of the United States who is 
responsible for managing U.S. information dissemination and 
providing strategic guidance for how to confront our 
adversaries in the information environment.
    While the 2017 National Defense Authorization Act mandated 
that the Global Engagement Center, or GEC, lead, organize, and 
synchronize U.S. Government counter-propaganda and 
disinformation efforts against state and non-state actors 
abroad, it failed to elevate the head of the GEC to a position 
of authority commensurate with its expansive mission.
    The GEC operates at the assistant-secretary level and lacks 
the necessary authority to direct the interagency. In practice, 
this means that the GEC is considered, at best, a peer to a 
half-dozen regional or functional bureaus at the State 
Department and numerous disparate organizations at the 
Department of Defense. Needless to say, the other departments 
have equity stakes in this space as well.
    Simply put, although the GEC is directed by law with the 
mission to lead interagency, the practical reality is that its 
role is reduced to simply suggesting function, which agencies 
can choose to follow or not to follow as they see fit. The 
result is a significant misalignment of responsibility, 
authority, and accountability which will continue until this is 
changed in statute.
    It is not unreasonable to think that the U.S. will always 
be at some disadvantage against our adversaries in the 
information environment. We are a nation of laws, where truth 
and ethics are expected, and rightly so. Our enemies, however, 
aren't facing the same constraints. Our adversaries, both state 
and non-state actors, can and will continue to bombard all 
forms of communication with their messages in attempts to 
influence public perception, create doubt of our actions or 
intentions, and recruit people to their cause.
    We must ensure that we organize U.S. Government efforts in 
such a manner that maximizes desired outcomes through 
discipline, agility, and innovation.
    Again, thank you for the opportunity to be here today, and 
I look forward to your questions.
    [The prepared statement of Mr. Lumpkin can be found in the 
Appendix on page 76.]
    The Chairman. Thank you.
    I will just mention that a number of members of this 
committee are also members of the Foreign Affairs Committee. 
And looking at the issue that you mentioned about the 
appropriate level of the director of the Global Engagement 
Center is something, I think, that a number of members probably 
should look at on both committees because it is their 
jurisdiction.
    I think a lot of the questions that you all are going to 
get are going to be about what we do, but I want to just take a 
moment to shine a little brighter light on what is happening, 
because I think understanding is really critical as a first 
step.
    A lot of attention, as we all know, to what happened in the 
2016 election. And so there are recommendations, even this 
week, about shoring up our electoral process.
    I don't think there has been as much attention devoted to 
these other countries trying to influence our decisions. And I 
mentioned, as did General Breedlove, some of these efforts in 
the past, to prevent us from deploying the Pershing II and the 
GLCMs [ground launched cruise missiles] in the 1980s or the 
neutron bomb in the 1970s, that they are continuing to be 
involved--have been involved historically in trying to make 
sure that we didn't make national security decisions that would 
run counter to their interests.
    And so that is the reason, when I think about the Nuclear 
Posture Review, or various other funding decisions that this 
committee has to make, I worry about those attempts continuing 
but us not recognizing it.
    General Breedlove, could you elaborate just a little bit, 
because you have been on the front lines of this, about, in 
your case especially, the Russian attempt to not just influence 
our elections but influence the political decisions we make, 
especially in the area of national security?
    And then, Mr. Garnaut, if you could help us think about the 
ways the Chinese are attempting to influence not just our 
elections or our perception of them but the decisions we make 
that affect national security.
    General Breedlove.
    General Breedlove. Thank you, Chairman.
    And I completely agree with the statement before your 
question. I would point out, for instance, what happened when 
Russia first went into Crimea and then into the Donbass. Russia 
clearly had a very localized overmatch when it came to military 
forces, but if all of NATO awakened, it could rapidly have 
changed. And so what we saw was a campaign that started 
immediately with very bellicose talk, to include what I have 
called in this room before loose talk about nukes, in order to 
try to influence the decisions of the West about how they would 
respond to what was going on.
    So, very broadly, in cases like the Ukraine, they have 
tried to influence us. And I would also say that some of the 
actions early in Syria are of the same ilk. The long-range 
shots out of the Caspian Sea into Syria had very, very little 
tactical effect, and I think they were mainly taken to show the 
West, ``Look, we can range your capitals from the Caspian Sea. 
Don't mess with us.''
    And so I think in every case, as we look at application of 
Russian capabilities, we need to have our eyes open to a 
broader message, because they are trying to, as you said, 
Chairman, influence our decisions in these spheres.
    The Chairman. Thank you.
    Mr. Garnaut.
    Mr. Garnaut. Yeah, there are lots of parallels between 
Russia and China. They are fascinating, and sometimes they are 
illuminating.
    One of the parallels is the effort to fragment alliance 
systems. So, certainly in Australia and elsewhere, there is a 
huge amount of effort to weaken the commitment of allies to the 
United States and to each other.
    And part of that, I think, is quite a sophisticated 
messaging system which is kind of inconsistent when all 
together but you can see how it works. And one is the message 
that China is inherently and possibly uniquely peaceful; you 
don't need to set up your armed forces because they are 
peaceful. That is it.
    Two, the second message is that China's rise is inexorable. 
So, even if you don't like it, there is nothing you can do. 
Resistance is futile.
    The third message, which is contradictory to the first but 
it comes out from different channels, back channels, and is 
really important when targeted at certain times, is that, 
actually, China is really dangerous, and it is ruthless, and if 
you get in the way, it is going to really hurt.
    And so it is this orchestra of messages which has worked to 
manipulate the public opinion, elite opinion backdrop and the 
mental wallpaper of decisionmakers as they are making decisions 
about their own force capabilities and build-up and the 
commitment to the U.S. alliance system and other security 
partners.
    The Chairman. That is helpful. Thank you.
    Let me yield to Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    And I will go where the chairman suggested. What could we 
be doing better? Or, put differently, if you were to say, 
``Here is the plan,'' and you could walk over and be God for 
the moment in the White House in terms of how we do a better 
job of countering all of this very aggressive messaging that 
the Russians, the Chinese, and the extremists are pushing, how 
would you organize that as a starting point? Who in our 
government plays the most important role? White House? You 
know, NSC [National Security Council]? Pentagon? State 
Department? What would the team look like?
    General Breedlove. Congressman, so let me take the first 
stab at it. And I may or may not actually hit what you are 
shooting at, but I want to offer that we are here sort of 
talking about the information piece of this conflict that we 
are in. And I think, first and foremost, we need to recognize 
that we are actually in a conflict.
    The second thing I would offer in how to organize our 
response is to understand that our opponent is broadly 
attacking us. I use that very simple model, DIME--diplomatic, 
informational, military, and economic--to describe a nation's 
power. There are much more sophisticated models, but for a 
fighter pilot that works.
    And what we see is our opponent is attacking us 
diplomatically at the values that we have and our legitimacy in 
the West. It is attacking us, as we have talked about in this 
committee, in the information space in incredible ways. In 
Europe, Russia is now using force again to change 
internationally recognized borders. And then Russia, as we 
talked about, is using its economic sphere to influence pricing 
and availability of fuel to nations that need it. So----
    Mr. Smith. I am sorry, but that is not what I asked. It is 
all very helpful, but we have heard that. What would the team 
look like?
    I mean, if I can just give you an analogy----
    General Breedlove. Sure.
    Mr. Smith [continuing]. That I think worked for us. After 
9/11, General McChrystal kind of led the notion that we are 
being attacked by a network, and it takes a network to beat a 
network.
    So, A, we went to an elaborate effort to understand what 
that network was that was attacking us, and then we built our 
own network. And all over the world, every morning, all the 
different pieces of that--and I won't get into all the 
different pieces of it--got together at 7:00 a.m. east coast 
time and said, how are we doing, what is going on here, what is 
going on there, what piece of it do you have, FBI, whoever.
    You know, I think we need that type of comprehensive 
approach. And I just want, what is the first step? What is the 
building block to build that counter-narrative?
    General Breedlove. Slow to get to my conclusion, which was 
we have to have an all-of-government response, and that has to 
be led somewhere, either an empowered GEC to bring all of 
government together or an entity in the NSC to bring all of 
government together. But we need to respond in an all-of-
government way.
    Mr. Smith. And right now it is fair to say nobody is in 
charge, right? There are some people doing a few things here 
and there, but there is no person who is like, I get up this 
morning, my job is to counter this information campaign?
    General Breedlove. I think that is correct.
    Mr. Smith. Okay.
    Mr. Lumpkin. And, sir, if I could add----
    Mr. Smith. Yes.
    Mr. Lumpkin [continuing]. I kind of think of the 
information space as we have an orchestra; what we don't have 
is a conductor. And we need to have a single person that is 
held accountable for U.S. Government information efforts.
    Mr. Smith. Just quickly on that piece, since there are kind 
of, like--there are several different pieces here. One, 
obviously, is the, you know, Russia--well, there is Russia and 
their efforts to undermine democracy and freedom. There is 
China and their efforts to do the same. There are the violent 
extremist groups that we are trying to counter. And then there 
is what the chairman mentioned, is the collective effort to, 
you know, interfere in our politics, not just in the elections 
but in our decision-making process.
    Is it possible, do you think, to wrap all of that into one 
thing and say, ``Okay, you are in charge, here is the 
information warfare, you have got to cover it all''?
    Mr. Lumpkin. I think what we have done as a nation 
correctly is we created the Director of National Intelligence 
to get 17 intelligence agencies together kind of marching in 
the same line.
    And they also advocate for budgets, resourcing, 
legislation, people. I mean, again, I always can tell people's 
priorities by where you put your resources, your people, money, 
and your time.
    And I would offer that we don't have a whole-of-government 
approach to this. When I took over the GEC, we had a $5.6 
million base budget.
    Mr. Smith. Yeah. Thank you.
    Mr. Garnaut. If I could add just to that, from the China 
angle, they are very good at playing off the different silos of 
our systems against each other.
    So if I can only underscore what General Breedlove was 
saying about the importance of elevating this issue and making 
it very clear the strategic importance of this issue, and then 
decisions flowing down to each part of our system, rather than 
the individual bureaucracies and agencies coming up with their 
own solutions and trying to sort of horse trade at the top.
    Mr. Smith. Okay.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Conaway.
    Mr. Conaway. Thank you, Chairman.
    Our Intel Committee will release tomorrow, we think, our 
findings and recommendations of what we thought the Russians 
did or didn't do pertaining to our elections and the systems 
that we have in place, the voter registration and the tallying 
systems. All those kind of things are a little more mechanical.
    The real fight is, as the chairman may have said and 
General Breedlove said, is between the ears of Americans, and 
how do you protect. Jefferson wrote extensively about how 
valuable an educated public is to the preservation of 
democracy.
    And I am looking right now at RT America--RT, Russia 
Today--which is a Putin tool to propagandize in America. And 
Jesse Ventura has a show on there, Ed Schultz has a show on 
there, Larry King has a show on there. I assume they know who 
they are working for, but the American people may not.
    So we, how do we--and this is more just a statement than a 
question, but the real issue for us is how do we make sure that 
Americans aren't improperly influenced? In a free society with 
a free press where anybody can get access to these channels, 
how do we make sure Americans understand who they are listening 
to, who they are being influenced by?
    Because at the end of the day, Putin's real issue was, can 
I get somebody to vote differently than they would otherwise 
have voted had I not engaged in this fight?
    And that is, you know, probably not an Armed Services 
Committee circumstance, but helping the American people 
understand where the risks are, looking at--you know, like, RT, 
you pull it up, it looks like it is a regular, legitimate 
American news source, when the truth of the matter is at its 
core is a Putin-driven propaganda machine.
    Just a statement, Mr. Chairman. I don't have much of a 
question in that regard, because, really, this issue is more 
how do we make sure Americans, when they go to the polls, have 
in mind the right person to vote for, or against, based on 
legitimate sources.
    So if any of the three have a comment in that regard, I 
would be happy to listen to you.
    All right. I yield back. Thank you.
    The Chairman. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you to all of you for being here. I really 
appreciate your remarks. I think we all do.
    You have talked, and certainly Mr. Lumpkin, you have talked 
about the Global Engagement Center and you have talked about 
the need for a conductor. But where is the executive in this? 
How important would the executive be to an elevated and 
empowered GEC? And could it actually not be that important if 
it wasn't seen as critical to the country?
    Where does it stand?
    Mr. Lumpkin. Well, I mean, I kind of scratch my head 
sometimes, wondering, you know, where is the executive right 
now in this process.
    I mean, I think what we see is the--I mean, information 
operations are military operations, just--you know, information 
operations to support, you know, military objectives.
    We have the public affairs team out there, you know, 
messaging to the American population. We have the State 
Department, who is focusing on the public diplomacy, which is 
influencing populations abroad. The gaps and seams in those are 
massive.
    And not only do you have the gaps and seams between them, 
but you have the hyper-connected world where what goes on in 
the public affairs is reached near simultaneously 
internationally. What happens in country X affects--it hits the 
American populations.
    So the world has changed on how we can consume, manage 
information and what flows where, but our silos are still 
there. Our silos still exist.
    And this committee, in conjunction with their counterparts 
in the Senate, have done some tremendous work in the 2017 
National Defense Authorization Act. In fact, it took the Armed 
Services Committee to legislate in the State Department on how 
they manage information, because it wasn't getting done.
    So I do think it starts here, to get the executive going in 
the right direction. But I think it is time to do a holistic 
look as far as how we manage information. It may be time for, 
you know, a control-alt-delete and look at new ways to do 
business. And I think elevating the GEC or a GEC-like element 
may be the right course of action.
    Mrs. Davis. Uh-huh.
    General, did you want to respond----
    General Breedlove. Just----
    Mrs. Davis [continuing]. On where do we start?
    General Breedlove [continuing]. A small add-on.
    I really liked the words Mr. Garnaut used. This should be a 
top-down-driven thing. It doesn't have to be the executive, but 
if it is not the executive, then the executive needs to empower 
someone below them, give them authority, responsibility, and 
accountability for the mission and then tell them to move out.
    Mrs. Davis. Mr. Garnaut, did you want to respond?
    Mr. Garnaut. No, I won't add to that.
    Mrs. Davis. All right. Great. Thank you.
    As you know, the whole-of-government approach that we tried 
to work with after 9/11 was--how do you think that that was 
transformative on some levels? What did we accomplish--why did 
we accomplish that and not accomplish other things?
    Mr. Lumpkin. I think it is, first of all, there was an 
immediate call to action because of the event that happened, 
because the horrific nature of what 9/11 did to the psyche of 
the American people, as well as physically damaging and hurting 
families and the American people writ large.
    Until we have that--I have learned that policy generally 
doesn't make itself. You need a forcing function. I would like 
to think that people are awake enough, based on what has 
happened and what is happening in the information environment, 
that it is time to do something about it before something 
horrific does happen.
    Mrs. Davis. Uh-huh.
    I am thinking also about our relationships with our NATO 
partners. And, certainly, General Breedlove, you were very 
involved with NATO. We know that, in many ways, it is really 
our Western--Western nations are strong, but that also makes us 
susceptible, because of our institutions.
    How do you think we do address these issues with our 
partners without compromising those values?
    General Breedlove. So let me agree, Congresswoman, with 
something you said which is important. And sometimes our 
strengths, which are our freedoms and our values, make us 
vulnerable. We are not accountable to the truth in the way we 
operate in these public spaces, where--or, we are accountable 
to the truth in these public spaces, while our enemies are not.
    And so I am not in favor of stooping to the wrong type of 
tactics in reply and compromising our strengths. And that is 
what I see in NATO as well. Western democracies, Western 
values, Western institutions are one of the first targets of 
these kind of efforts coming from our opponents.
    Mrs. Davis. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank each of you for being here today. We appreciate 
you highlighting such important issues that have been a great 
concern of the committee over years.
    One issue in particular that I recognize is working on 
China's ongoing influence campaign through the establishment of 
Confucius Institutes across the United States.
    Currently--and this is a question for each of you--there 
are 103 active Confucius Institutes that were described in 2009 
by Li Changchun, the head of propaganda for the Chinese 
Communist Party, as, quote, ``an important part of China's 
overseas propaganda setup,'' end of quote.
    It is for this reason that yesterday I introduced 
legislation, H.R. 5336, the Foreign Influence Transparency Act, 
which would require transparency of these institutes through 
modifying the Foreign Agents Registration Act for disclosure.
    Do you believe it is appropriate to require organizations 
like the Confucius Institutes to register under the Foreign 
Agents Registration Act?
    And, additionally, it has been 23 years since the Foreign 
Agents Registration Act, FARA, has been last updated. What 
recommendations would you give to the committee on how it 
should be changed to deal with Confucius Institutes or other 
influence operations that you have discussed today?
    Mr. Garnaut. Well, thank you. And I did note those reports 
with interest.
    Now, Australia has had a close look at your FARA 
legislation. We didn't have any before, so we are coming from a 
standing start. And I think what we have tried to do in 
Australia is to broaden the definitions a little bit to account 
for the fact that a lot of foreign interference is indirect. 
You know, FARA tends to be focusing on a more contractual 
relationship, so you need to have some broader definitions.
    And I think that the direction you have taken with that 
draft legislation is very encouraging. And leaving aside 
whether or not the Confucius Institutes themselves should be 
registered, I think that is the right direction.
    Because what they do is partly propaganda, but I think even 
more important is their connection to the United Fronts Work 
Department system. And that is that, you know, they can 
potentially be used, or we need to stop them being used, as a 
platform within universities for influencing decision making in 
universities, as well as having an element of propaganda in 
itself.
    I think your expansion of the FARA legislation is certainly 
a very encouraging thought.
    Mr. Wilson. Thank you.
    Mr. Lumpkin. I absolutely agree. I think we need to look at 
the definitions within the FARA to see what is included and 
what is not and maybe take a fresh look at them. But the 
legislation at first glance looks really, really good, so I am 
pleased you did that. Thank you.
    Mr. Wilson. Thank you.
    General.
    General Breedlove. Sir, just to save your time, I would 
just completely align myself with the concept of transparency.
    Mr. Wilson. Thank each of you for that.
    And, Mr. Lumpkin, given your previous experience as Special 
Envoy and Coordinator for the Global Engagement Center, could 
you inform the committee as to ways in which this committee can 
support their mission, whether it be increased authority, 
funding, or coordination with SOCOM [U.S. Special Operations 
Command] in their counterpropaganda efforts? Do you believe 
more can be done to ensure their success? As I believe their 
mission is absolutely critical.
    Mr. Lumpkin. I do. Thank you.
    I think one of the pieces, as I mentioned, is that they 
need to be fully empowered to effectively execute across the 
interagency, to include USSOCOM as one of the combatant 
commands.
    I additionally believe they need to be resourced, not only 
with money but with people and with leadership. Since my 
departure in 2017, there has been an Acting Special Envoy, and 
I would like to see somebody permanently put into that place to 
guide that institution.
    But I do think that one of the key pieces is to elevate 
them to the point where they can have a compelling and 
effective voice. I think the other piece the committee could do 
is--hearings always assist in transparency, so I think that 
hearings on subjects like this one go a long way in moving 
forward.
    Mr. Wilson. Thank you very much.
    And, General Breedlove, the Governments of the U.K., U.S., 
France, and Germany have recognized the use of the nerve agent 
Novichok as an offensive use of weapons.
    Do you believe that the use constitutes an act of war? If 
so, what should the U.K. or allies do to reciprocate?
    General Breedlove. Thank you for the question.
    And I quickly found, when I was the head of NATO, I 
couldn't determine what was an act of war. The NACC [North 
Atlantic Cooperation Council] got to do that. But I would 
definitely construe it as a warlike action on a friendly soil.
    And I think that the more surprising piece of this is, 
again, how brazenly and how open these actions were. And I 
think that we have seen actions like this in our own capital in 
the past, and so these are concerning.
    Mr. Wilson. Thank you all.
    The Chairman. Just briefly, on the funding for the Global 
Engagement Center, Mr. Lumpkin had mentioned $5 million 
previously. As I understand, in the omnibus there is the 
authority to transfer up to $60 million of DOD [Department of 
Defense] money for specific projects in the Global Engagement 
Center, and then, of course, what State Department puts in. So 
just to let everybody know, again, it is--DOD money can be 
transferred as well as the State money.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Mr. Garnaut, first off, congratulations on winning the 
Brownlow Award in 1993 as the best and fairest player in the 
Australian Football League. Having grown up watching the early 
days of ESPN and a lot of Australian football, I didn't know 
there was a fair way to play it, and I am glad to know that 
there is. So congratulations.
    And for you, as well, because of your experience in 
Australia, one of the concerns I have about how we are 
approaching the relationship with China is that we have a 
defensive playbook and not an offensive one. We are not filling 
gaps that China is filling, where we can fill those gaps. And 
one of them has to do with the Confucius Institutes issue.
    And I am wondering--I think another way to approach the 
Confucius Institutes is to actually identify these universities 
and maybe expand Federal funding for Chinese language and 
Chinese culture for students so that they don't have to 
outsource that activity to Confucius Institutes.
    And I am wondering in Australia what you are doing, since 
you mentioned in your testimony that universities, I think, 
need new processes and transparency to deal with Chinese 
influence on campuses. How are you approaching that there?
    Mr. Garnaut. Well, you have hit upon a key vulnerability 
here. China is really filling--providing a service that we are 
failing to provide, and that is China capability--linguistic 
capability, understanding of Chinese contemporary politics and 
history. So the Confucius Institutes have found a kind of, you 
know, great black hole that they can fill.
    So, yes, we do need to work hard on rebuilding our China 
capability--I think that applies to the United States as well 
as Australia--at universities.
    I would just flag one thing about the Confucius Institutes, 
which is at least we know about them and people are talking 
about them. And, in a way, that degree of transparency goes a 
long way to curing the problem. What I am personally more 
concerned about is things that, you know, don't have a big flag 
over their building. So we see other institutes and research 
institutes performing similar functions but without the 
attention, and I think that is where we need to pay a lot more 
attention.
    But transparency is absolutely key. I think we are 
unanimous on this panel. Inside universities, I can think of a 
couple things to do. And, you know, in many cases, it is up to 
the universities themselves, but I think there is a lot more 
room for transparency about the sources of funding, 
particularly donations. We should be honest about the political 
connections of money that comes. We should have more 
transparency about who is funding research projects--who 
exactly is funding research projects and, also, who is funding 
trips to China. You know, the junket trade is rife. We just 
need to--we don't want to stop it, but we need to flag it when 
it is happening.
    Mr. Larsen. Yeah. Great.
    And I want to follow up on the point you made about 
consistency and really giving that message from the top down.
    So, here in the U.S., we have just--one agency has 
concluded that the Belt/Road initiative [BRI] is a tool of 
domination for the Chinese, while another Federal agency is 
actively trying to find ways for U.S. businesses to participate 
in Belt/Road projects. That seems to be, to me, inconsistent. 
And we can decide which one we ought to choose, but it is just 
flat-out inconsistent.
    Again, thinking about going on offense--and maybe Australia 
has looked at this question--what can the U.S. do to compete or 
at least have a presence in those places where China's BRI has 
a presence, as opposed to just saying we are going to try to 
ignore it, put on blinders, think it doesn't exist, but 
actually have a presence in these same places where BRI is 
being implemented?
    Mr. Garnaut. Yeah. The policy responses to BRI have been 
disjointed all around the world. And, typically, economic 
agencies will support it--you know, they see the idea of 
building things and making things to be a good thing--and 
security agencies don't. And often it is a very messy, 
unmediated response that happens. We see that from a lot of 
countries around the world.
    So, yes, that does highlight the central importance of 
elevating China and Russia policy to a higher level and pushing 
down the objectives and the strategies.
    With BRI, obviously, again, they filled a vacuum. You know, 
if we are, between us, no longer supporting development in the 
way that we used to in my part of the world, in Southeast Asia 
and the Pacific, well, it provides opportunities for others.
    So I think that there is opportunity to do more there but, 
also, really to focus again on transparency. Because if we can 
just empower civil societies to do a better job, to do more of 
what they are doing--local communities, local media, local 
journalists--sunshine will cure a lot of the harm that we are 
worried about.
    Mr. Larsen. Thank you very much.
    Thanks, Mr. Chairman.
    The Chairman. Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman. Thank you for having 
this important hearing.
    And I am going to make an editorial comment real quickly 
before I ask my question of the witnesses. And that is, no 
matter what the President does or doesn't do, he is going to be 
criticized. If he doesn't congratulate Putin, some people would 
say he is not reaching out, he is going it alone, et cetera, et 
cetera. So I just want to defend the President by saying it is 
important to take some of the criticism with a grain of salt.
    Okay. To my questions of the panel.
    You have already been asked about China, and you have 
talked a lot about that. I want to follow through a little more 
on that. What happens to democratic institutions in the United 
States and in Australia if we don't push back on the kind of 
influence that they are trying to exert on our political 
institutions as a democracy?
    Mr. Garnaut. I might have first crack at that.
    Well, you lose control of the debate.
    So, in China's case, one of the things that we have just 
failed to recognize and failed to address for decades, and it 
has allowed the problem to fester, is the extent to which China 
or the Chinese Communist Party has been able to co-opt friendly 
voices in the Chinese community, the Chinese media in our 
countries, and to coerce and intimidate others out of 
participating in the debate. So it rewards and nurtures 
favorable conversations and shuts down others.
    So we really need to go and protect people and provide safe 
spaces for people to have their freedom of expression, which 
the rest of us have taken for granted. And now we are seeing 
that modus operandi spread out of the Chinese communities into 
the mainstream. And so we are seeing major efforts by China to 
intimidate publishers, journalists out of participating in the 
conversation and to reward others. You know, they help you 
succeed. They find a favorable sympathizer, and they help you 
succeed.
    We need to balance that. We need to protect people who have 
been coerced and threatened, and, where necessary, we need to 
create safe spaces to have these conversations. At 
universities, you are untainted by political money from 
overseas. In the Chinese diaspora, we need to create or help or 
reinforce independent media platforms, because at the moment 
they are being completed drowned out. We are losing--literally 
losing sovereignty over the public discussion places in our 
countries.
    Mr. Lumpkin. In addition to losing control of the 
narrative, you lose the audience. You lose that audience to 
connect with not on just that issue but other issues.
    The attention span for many people is very short. That is 
why social media platforms, the early--you know, 140 
characters. You can captivate and actually change and influence 
people. But what we don't want to do is cede this space to our 
adversaries and lose access to the audience.
    General Breedlove. So, sir, I would just echo that by 
saying, in military terms, we have to take the field. If the 
only voice in the fight is that attacking our democratic 
institutions, then that is all that the people will hear, and 
we will be diminished. We have to purpose to take the field.
    Mr. Lamborn. We have talked a lot about information 
campaigns by the U.S. and how that is important. But sanctions 
in other human rights arenas has been very effective. The 
Russians vehemently reacted against the, if I say this 
correctly, the Magnitsky sanctions when that law was passed by 
Congress and signed by President Obama, which shows that we hit 
a nerve. It was effective and continues to be effective.
    Do sanctions on high-placed officials in Russia and China 
have a place to play in this campaign that we are waging?
    General Breedlove. I have been outspoken on this a little 
bit, so let me take the first shot.
    Of course our sanctions have helped, and they are effective 
in many ways. But if the only tool we use are sanctions and if 
they are always under sanctions, they become the new normal and 
they begin to diminish in effect. And the longer they are in 
effect, the longer they have to find out ways around them, 
through shell companies and other things that are happening.
    So that is why I advocate, as I did in my opening speech, 
we need a more all-of-government response. We need to look into 
the other silos where they are using tools against us and also 
open up our thoughts and imagination there.
    Mr. Lumpkin. And if I can, we are not going to message our 
way to--it is not a panacea. We are not going to sanction our 
way to get where we need. We are not going to kill our way. It 
is about having a layered approach in our national policies to 
ensure that, from a security perspective, the American people 
are safe.
    Mr. Lamborn. Thank you.
    The Chairman. Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman.
    And thank you to the panelists for being here today.
    General, this question is for you. There is a saying that 
the best defense is a good offense. This is an adage that has 
been applied to many fields of endeavor, including sports and 
combat. I recognize that this strategic offensive principle of 
war might not be applicable to our nuclear defense strategy, 
but when it comes to our cyber strategy and our information 
operations, shouldn't this principle be applied? And, really, 
the question is, are we doing enough offensively?
    I recently visited Latvia and Estonia and Ukraine, had an 
opportunity to speak with U.S. and partner officials, both 
military and nonmilitary. And I couldn't help but walk away, 
you know, with the perception that we are just not doing enough 
offensively.
    Can you comment?
    General Breedlove. We like to say as a fighter pilot, ``The 
best defense is your missile on the way to your enemy.''
    So, sir, in short, I don't think we are doing enough. We 
have sort of ceded the offense. We are under attack. Now, we 
have to take a more offensive reply, is the way I would offer 
it.
    And it goes back to the answer I had for the other 
Congressman, and that is that, especially in the information 
space, we truly have not taken the field yet. And we don't have 
to disinform, but I believe there are a lot of truths about 
Western institutions and values that we can use in a more 
offensive way.
    Mr. Garnaut. Look, I might take a slightly different angle 
on this. I think, especially in relation to China, we 
underestimate the amount of defensive work we have got to do. 
And so I think offense is a terrific conversation, but I would 
first want to make sure that we have actually begun our 
resilient strategy at home. Because if we don't have that 
foundation, we can't get very far. So it is just a sequencing 
issue for me.
    Mr. Brown. And then let me follow up with you. Is it 
``Garnaut''?
    Mr. Garnaut. ``Garnaut.''
    Mr. Brown. Okay. Thank you. I want to follow up not on this 
question or your answer to this question but your response to 
Mr. Larsen about the Confucius Institutes. And we have one at 
the University of Maryland. They are basically--they are 
springing up all over the country and the world.
    Just last month, the FBI [Federal Bureau of Investigation] 
director testified before the Senate Intelligence Committee 
that the Chinese Government uses these nontraditional 
collectors, like the Confucius Institutes, to exploit the open 
research and development of the U.S. and serve as outposts--
now, I am paraphrasing--of Chinese overseas intelligence 
networks.
    You suggested that, you know, with the Confucius 
Institutes, as long as you know that they are there--
transparency and accountability. My concern is that, number 
one, they are paid for by a government that has a modus 
operandi of influencing private-sector, nonprofit, and academic 
institutions to promote its policies and its objectives. And, 
number two, how do you police, you know, so many universities 
and campuses around the world?
    So I guess my question is, what about a set of standards 
that would be applicable? And maybe even reporting? And how do 
you balance that particularly with Confucius Institutes on a 
college campus, where we invite freedom of expression?
    Mr. Garnaut. I couldn't agree more about the need for 
standards. There are some pretty basic standards that often get 
buried in the top drawer when it comes to Confucius Institutes. 
For example, I don't understand the need for secrecy around the 
contractual arrangements that are often set up. Of course, they 
should be transparent, they should be on the website.
    I don't see why Confucius Institutes, unlike almost any 
other similar foreign cultural organization, needs to imbed 
itself in universities. So, going forward, I would encourage 
university administrators to keep them at arm's length.
    And where we see problems with Confucius Institutes, it is 
almost always because universities have failed to impose, you 
know, even the most basic accountability. And you see the 
institute kind of moving or seeping into decision making 
elsewhere in the university. So if you tightened up management 
and you improved accountability, you would go a long way.
    But I would just add that there has been such 
conversations, there has been such attention on the Confucius 
Institutes, I wouldn't want that to distract us from all the 
other stuff which is more difficult to see, we have got to work 
harder to see.
    Mr. Brown. Thank you.
    The Chairman. Thank you.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Panelists, thank you so much for joining us today.
    Mr. Garnaut, I wanted to begin with focusing on the Chinese 
One Belt, One Road initiative and the things that they are 
doing to make infrastructure investments in places like Sri 
Lanka, where they are developing a port there, and in Djibouti, 
where they built a military base.
    What we are seeing is investment that is being guised as 
economic, that has definite strategic implications. And all you 
have to do is to talk about neighbors in the area. India and 
others feel very, very differently about the intentions of 
those efforts by China.
    Can you give me your perspective from your--in your 
testimony, you said that some of these efforts are about 
winning without fighting, so essentially winning by other 
means. And that is creating strategic blocks to, I think, take 
away the ability for other countries to do certain things and 
therefore take away their capability.
    And how do these types of what really are influence 
operations by China, how do they play into this strategy of 
winning without fighting? And can these activities be seen as 
tipping points for sites and other activities around the world 
that may include further expansions in these areas under the 
guise of economics for these particular nations?
    Mr. Garnaut. Look, I think the example of Djibouti has been 
instructive to all of us--and Sri Lanka. Too often we are 
seeing that things that were advertised as just pure economic 
investments in infrastructure have ended up being used in this 
process of debt-trap diplomacy----
    Mr. Wittman. Yeah.
    Mr. Garnaut [continuing]. To kind of change a leasehold 
into freehold ownership of crucial infrastructure.
    So there is a real problem there. The information is now 
in; it is no longer an abstract, hypothetical process. And it 
is much harder for developing countries to tackle this than 
robust democracies, because it is easier for the elite to be 
bought off and to actually sell out their national interests 
without the same degree of accountability.
    So the pattern now is pretty striking. Those two examples 
that you mentioned--you could have mentioned a couple of 
others, including Pakistan--where, you know, the countries 
should never have signed up to that degree of debt, and it 
gives China enormous leverage, which it can use for strategic 
purposes. So, yes, we are all on notice that this is a problem.
    Mr. Wittman. Very good. Thank you, Mr. Garnaut.
    General Breedlove, the United States military, I think, has 
made a lot of advances along the lines of cyber issues, 
establishing some centers for excellence, especially the NATO 
Cyber Center for Excellence. And Estonia has been a great 
example about how those things have progressed. And, obviously, 
your time there with NATO and with EUCOM, you know, was a great 
part of that.
    But it seems like, though, on many of the other less-
definitive issues, the U.S. is lagging behind somewhat. And I 
wanted to get your take on what are the necessary steps going 
forward for the U.S. to do more to protect its data, and not 
just data in a defense system but also data on the commercial 
side; to safeguard the American system from dirty money, that 
money that kind of makes its way through and undermines efforts 
for us to guard information and to keep a strategic superiority 
place for us; and, also, to restrict the influence that nations 
like China are having over our universities?
    Mr. Garnaut spoke a little bit about these Confucius 
Institutes, but it is more than just the Confucius Institutes. 
That is one element of it, but there is a lot of other, more 
clandestine efforts that are going on there to have influence 
but also to gain intellectual capacity back to China.
    So I wanted to get your perspective there on those issues.
    General Breedlove. Thanks for the question, sir.
    And I would just disqualify myself about talking about the 
dirty money. I think that the answer there is what we have 
talked about a couple of times: transparency in business 
practices and standards. And that is about as far as I can go 
on the economic front.
    I think you really hit the nail on the head when you 
mentioned the exfil [exfiltration] of commercial data. One of 
our past DNIs [Directors of National Intelligence] said that we 
have had terabytes--terabytes--of proprietary data about our 
most advanced systems that have been exfil'ed from our 
commercial entities.
    And so I think we need to recognize that that is a 
strategic problem for the United States, to include its 
military. And then we probably need to rally around those who 
are struggling. And I think, in general, we look to our 
commercial entities to do it on their own. And so I would 
advocate for sort of increased collusion on how we defend these 
very important and valuable things.
    And on the restricting influence on universities, again, we 
run up against those things we value, which are freedoms of 
expression and so forth. But I think Mr. Garnaut hit it right 
on the head: Having some standards and setting expectations 
before is really important. And that then empowers the 
universities to not be seen as an ogre in the business, and 
they can adhere to those standards and expectations.
    Mr. Wittman. Very good.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Panetta.
    Mr. Panetta. Thank you, Mr. Chairman.
    Gentlemen, good morning. Thank you for being here.
    Mr. Garnaut, kind of going a little bit more into what you 
were just talking about, I realize that we have talked a lot 
about our country's offensive and defensive capabilities. Talk 
to me about other countries' offensive capabilities and our 
coordination with those other countries, if you can. How is 
that? How are we at that point?
    Mr. Garnaut. Well, we are not. So this is the very early 
stages of a long, long conversation.
    So the answer is that, you know, it only seems like 
yesterday we were all woken up to the defensive piece. And I 
think there are many countries, you know, in this game that are 
actually actively working out the offensive piece, let alone 
coordinating between each other.
    So the answer is it is all to be done.
    Mr. Panetta. Please.
    General Breedlove. I would just point out some exercise 
experience, not real-world experience.
    In an alliance with multiple nations, each nation brings 
different levels of restrictions to its use of offensive power. 
And sometimes in these scenarios, again, in exercises, we find 
that while one government will not approve something, another 
might use their tool. And so commanders, who have to deal with 
alliances, have to understand the ability to do bilateral work 
inside of an alliance to use tools that may not come to the 
front.
    And I would just say one more time, a third time: In 
exercises we have looked at this.
    Mr. Panetta. Understood.
    Mr. Lumpkin. And I do have one real-world example of where 
this coordination has happened, and that is the counter-ISIS 
mission among the coalition.
    The messaging piece--there was a strategic communications 
messaging group that worked hand-in-glove together because of 
authorities of different countries' understanding of specific 
audiences, where we could synchronize and coordinate the 
messaging to make sure we hit the right message to the right 
audience at the right time with voices that would resonate.
    Mr. Garnaut. Let me stand corrected. On ISIS, that is 
right. There is a lot of work to be doing in actually emulating 
the work we have already done on ISIS, including working 
together.
    Mr. Panetta. But it appears that all of you would agree 
that, when it comes to these revisionist countries and their 
guerilla geopolitics, there is not really a coordination 
amongst the other nations in pushing back on them.
    General Breedlove. NATO is beginning to have those 
conversations.
    Mr. Panetta. Great.
    General Breedlove. I have been out of NATO for a little 
while now, so I can't speak for their most recent 
conversations.
    Mr. Panetta. Great. Great.
    Thank you, gentlemen.
    I yield back. Thank you, Mr. Chairman.
    The Chairman. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    In U.S. campaign finance laws, we have provisions whereby 
if someone wants to do political ads on radio or TV, they have 
to disclose who they are, who the organization is. We have 
never updated those laws to reflect social media platforms. Do 
you think that that transparency would serve the American 
people well?
    I am wondering if you all might comment on that, starting 
with you, General.
    General Breedlove. Absolutely. It is a really short answer. 
But, clearly, we did not understand what has happened in our 
past in this, and we need to be a lot better at it in the 
future.
    Mr. Coffman. Thank you.
    Mr. Lumpkin. I think there is something ``there'' there 
with that. But I also think that there should be some sort of 
credibility rating on the veracity, not just who is paying for 
it, but is it true, is it not true. And I don't know if it is--
you know, historically, you get five stars because your truth 
over time for 20 years is, you know, at the top 1 percent, or 
however it works. But I think we need some sort of veracity 
scale to see that what is actually coming out is true and 
accurate.
    Mr. Garnaut. And if I could add, on China, so China doesn't 
yet work the English language social media in the same way that 
Russia does. Maybe it is learning; maybe this is all to come.
    But where we've really got a problem is in the Chinese-
language social media systems and channels. So the fact that 
China has been successfully able to block out the big American 
platforms--the Facebooks, the Twitters, et cetera--has given it 
a near monopoly of Chinese-language social media, and it 
follows the diaspora abroad.
    And so we have actually lost--you know, these messages that 
are going to most Chinese-language social media users in 
Australia and the United States are filtered through Beijing, 
so we have actually lost the delivery mechanism. So it is well 
beyond just tagging that there is some government involvement 
in the message; it is filtered and delivered and created by a 
Beijing-sponsored platform.
    Mr. Coffman. Thank you.
    General Breedlove, as a former U.S. commander for European 
Command, you had mentioned in recent testimony--in prior 
testimony about the Russian attack against its former spy and 
his daughter as not necessarily an act of war but a warlike 
act.
    In Article V of the NATO charter, it speaks to the 
requirement for NATO members to come to the defense of any NATO 
member who has been attacked. The problem is what constitutes 
an attack.
    And what the Russians--I almost said ``Soviets.'' I don't 
know if there is a difference. But what the Russians have been 
developing is these hybrid tactics. And so, you know, it is 
about, you know, information operations. It is about using 
covert forces in conjunction or to augment indigenous elements 
that they have stirred up within the country. They have 
obviously done this in the Ukraine. My guess is they could very 
well be looking at the Baltic States as a test to break NATO.
    How well-defined is Article V? And what would you 
anticipate a European response, a NATO response in something 
that may not be a clear-cut conventional attack?
    General Breedlove. Congressman, this is a tough question 
that is being discussed in NATO when I left and still is being 
discussed.
    When do these--and I liked--I used that, ``hybrid,'' in my 
own testimony. I really like Gerasimov's words because they 
illustrate what you are talking about: active measures and 
asymmetric methods.
    But Article III, defense starts at home. Article IV, we 
consult with our allies to determine have we been attacked and 
what is the response. And Article V is then the collective 
response.
    So that process kind of walks through. And at the point 
that we are now, most of the nations are using that process 
individually to determine, have we had an Article V sort of 
response. And so it is hard to draw the line of what is and 
what isn't.
    And, frankly, I believe Mr. Gerasimov and Mr. Putin believe 
they can get away with different things in different countries, 
to include our own. They have a line which they think they can 
operate to.
    And so it is a tough question to answer, and I can't give 
you a definitive piece.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman, and thank you for 
this hearing. In my view, this is an extremely important 
hearing, and it is one of a series that I believe we ought to 
engage in.
    I recall a hearing in the Senate, about a month ago now, in 
which the heads of the intelligence agencies, when dealing with 
this asymmetric warfare, said that it appeared to them that 
there is no risk to Mr. Putin; there has been no pushback.
    Last week, the Departments of Energy and Homeland Security 
issued a bulletin that clearly said that Russia had hacked into 
our electric grid systems, into our power plants, including 
nuclear power plants, and various transportation, including 
airports, and that they had probably gained control of those 
systems. In other words, they could shut down the electric 
grid; they could shut down the cooling systems in power plants, 
probably including nuclear power plants.
    The question that this committee must ask Cyber Command, 
who is responsible, as I understand it, for the defense of this 
Nation against cyberattack--and, by the way, the Departments 
both said it was an act of war.
    The question for this committee is to ask the question of 
Cyber Command: Are you defending the Nation? And what can you 
do to make Russia understand that there is a risk, that they 
will pay the price for what they have already done and what 
they might do in the future?
    So, Mr. Chairman, this is more to you, to ask you to have 
Cyber Command in here. I understand they may be here on April 
11. And we must ask them the tough question: Are you defending 
this Nation? If so, how did it happen--how did it happen that 
the Russians are able to gain control of our key 
infrastructure? Which would be a pretty good indication that 
our Nation is not being defended.
    And, furthermore, what instructions has Cyber Command or 
any government agency been given by the President to defend 
this Nation and to strike back? If there is no risk, then we 
are at serious--if there is no risk to Russia, then we are at 
serious risk.
    This being the Armed Services Committee, Mr. Chairman, our 
task is to hold this administration accountable, to find out 
what they are doing to protect us or what they have not done 
and what they could do. And until we do that, it is very clear, 
from the ongoing information war and cyber war, that there is 
no risk to Russia for what they have already done, which has 
been described by our Homeland Security and the Department of 
Energy as an act of war.
    Mr. Chairman, we have a job to do here, because this 
administration is not doing it.
    If any of you gentlemen would like to comment, please do. 
You have 53 seconds.
    General Breedlove. I would just add that, when we consider 
giving Mr. Putin risk, we certainly need to, as you have talked 
about, look in the cyber and information spaces, but as I have 
said already this morning, we need to also look in the other 
spaces. We need an all-of-government reply in these areas.
    Mr. Garamendi. If I might, sir, in your initial testimony, 
you said that we needed a plan, a comprehensive plan. We don't 
have one, obviously. I would be delighted to hear your idea of 
what that might be. And, obviously, you won't do it in 16 
seconds, but you are welcome to come back to my office or maybe 
to another hearing.
    The Chairman. Mrs. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    And thank you, gentlemen, for this very, very important 
hearing.
    General Breedlove, it is good to see you again. I am used 
to seeing you in uniform, but I appreciate your expertise 
continued and your testimony.
    And I just want to highlight a few things and then bring it 
home and then ask for your advice.
    You say that Russia's interference in the election is 
merely a symptom of the larger hybrid war against the West in 
which economic, cyber, and disinformation tactics are used in 
conjunction with conventional forces in order to exert force, 
pressure on the adversary.
    The American people need to know this, and I am so glad we 
are having this hearing today.
    You go on and say: Waging a conventional war against the 
West would be unfavorable to Russia. As such, it has used 
hybrid warfare to break up Western unity. Exploiting divisions 
in the U.S. society and promoting a cultural war is one key 
element of Moscow's effort to weaken the West.
    That is spot-on.
    I want to bring it home. I represent part of Missouri, and 
I represent the University of Missouri. That is my alma mater. 
Here are a couple of headlines that came in my local paper 
there.
    ``Report: Russia sparked fear at the University of Missouri 
during 2015 protests.''
    Another article: ``Mueller indicts Russian agency cited as 
origin of University of Missouri disruption efforts.'' We had 
some unfortunate protests, some discord locally on our campus, 
and the same people that were involved in the Presidential 
election from Russia inserted themselves into our local issue 
to make the matter worse.
    And there was a really great report done by Lieutenant 
Colonel Jared Prier, who did the research and connected the 
dots and brought this to light. I just want to read a couple 
things that he said.
    He said, ``Defendants, posing as U.S. persons and creating 
false U.S. personas, operated social media pages and groups 
designed to attract U.S. audiences. These groups and pages, 
which address divisive U.S. political and social issues, 
falsely claim to be controlled by U.S. activists when, in fact, 
they were controlled by the defendants.''
    He goes on and says, ``The role of the Russian trolls and 
bots wasn't to generate a controversy but to feed and amplify 
it in an attempt to fan discord.''
    And then he had another real quote. He says, ``It is like 
when someone gets in a fight and there is someone in the back 
of the room saying, `Yeah, punch him. He'll think you're weak,' 
egging it on.''
    And so we have got to bring this to light. And I think, as 
Americans, it is time that we rally as a family. You know, it 
reminds me, back home in Missouri we have a lot of common 
sense. And sometimes we have our own interfamily squabbles, and 
the brothers and sisters may fight a little bit. But, boy, the 
neighbor kid or somebody else wants to attack our brother or 
sister? Boy, we rally around that family, and don't mess with 
my family.
    And I think, as Americans, we need to wake up. This is what 
our adversaries are doing across the world, whether it be 
Russia or China. They are exploiting our own family squabbles, 
making them worse, making us not only fight ourselves but fight 
other people and weaken the whole thing. And it is time that we 
wake up to this.
    And you conclude by saying we need to take a position, 
establish policy and execute it. And all of you have given a 
lot of good advice. And I know we need a strategy.
    But I wanted to ask you General Breedlove, specifically on 
this issue, where you have social media from the Russians 
coming in, interfering with our own family squabbles, what do 
you think our policy should be? And what should the execution 
of that be? What should we do in retaliation for them 
interfering?
    General Breedlove. So, very quickly, to pile on, I use this 
very example as I speak around the country of what happened at 
Mizzou. And it was even multilayered. After they instigated 
problems, they went back in and chastised the local press for 
not covering their disinformation and further spreading it. It 
was really audacious, what they characterized there.
    The first thing, ma'am, is that America needs to understand 
this. There are other examples equally as bad as Mizzou 
surrounding removing Confederate statues, both sides being 
egged on by the Russians. In order to try to keep oil prices 
down, they are instigating fights on both sides of things like 
oil pipelines and fracking in order to cause discord and 
disharmony and to hopefully continue to suppress those efforts 
to keep oil prices up.
    And so the first step, I think, is making Americans aware 
that the Russians and the troll factory there in Saint 
Petersburg, the Internet Research Agency, is out there 
orchestrating these battles in these spaces, and make our folks 
aware that when they go into their social media they are 
getting an echo chamber of their own thoughts. They are really 
not seeing both sides. And in that echo chamber they are being 
fed by these people who are trying to incite, again, on both 
sides of the issues.
    So awareness first. And then to begin to hold responsible 
those--and I think we need to start having tough conversations 
with those that prepare the social media platforms on what they 
allow in their spaces.
    Mrs. Hartzler. Thank you.
    The Chairman. Mr. O'Halleran.
    Mr. O'Halleran. Thank you, Mr. Chairman.
    I guess I am going to make some statements and take up some 
time. But I am an old investigator here, and I look for 
verification of issues and gaps in issues. And we are dealing 
right now with an issue that, if they attack our electrical 
grid, we could find some ways of changing the process, but they 
are shaping our citizens' minds. They are shaping the values of 
how people feel about our government and our country. And that 
is something that we just don't turn off. That is something 
that we have to gain back the trust of the American people and 
be able to do that.
    And it is not just social media. I listen to TV also. And 
it is ``I think,'' ``I believe.'' There is no verification of 
anything anymore.
    And I have heard statements of whole-of-government approach 
all year long, and I don't see it where it is working. And I 
heard it earlier today. This is the kind of stuff that started 
after 9/11. So we have been 17 years of talking about whole-of-
government, and it is apparently not working.
    It is hard for me to believe--I was channel surfing one 
time, and I saw RT on. And it took me about 5 minutes to 
understand what it was about. And I didn't even know at the 
time it meant Russia.
    And now here we are today, and I cannot believe that our 
intelligence people have not picked up on this for the last 
number of years. And so they either missed what was happening 
totally, they chose not to make it a priority, or they did not 
understand the consequences. Because if they knew that this was 
occurring and they didn't take the appropriate action over the 
last 17 years, then we really have a problem. We are behind by 
17 years. And I believe all of you made that type of a 
statement.
    And, Mr. Lumpkin, you said you were scratching your head 
right now, and you also said that the world has changed. And I 
am shaking--and silos are still there after 17 years. I find it 
very difficult to--if I were sitting at home as an American 
citizen listening to this, I would be not only shaking my head 
but I would have to question the viability of how our 
government addresses these serious issues on an ongoing basis.
    I am new in Congress, but I have to tell you that, like 
many American citizens, I want to be able to believe my country 
is going to react in the appropriate way when this occurs, and 
I haven't seen that at all, whether it is this hearing or 
subjects leading up to this hearing, where the faith of the 
American people, in making sure that they trust their 
government and trust what they are hearing across the entire 
spectrum.
    We talked about standards here today. It appears that, in 
my lifetime, standards have not only gone down because of 
social media, but also because of ratings and the fact that we 
don't have much investigative reporting anymore and it is all 
quick, 30-second sound bites or 3-minute sound bites and move 
on to the next issue.
    So having given--I have a little bit of time here, so what 
do you think?
    General Breedlove. I will be really quick, sir.
    I think that after 9/11 we did have sort of an all-of-
government response, but it is my opinion that we are extremely 
limited in our all-of-government response on issues since then. 
We tend to take very military approaches to Middle Eastern 
problems, and we tend to take very economic approaches to 
Russian problems.
    Mr. O'Halleran. Anybody else?
    Mr. Garnaut. If I could just add, essentially we are 
talking about intangible harm, and it is very intrinsically 
hard to define and to see, so where there is no body bags, 
there are no explosions. So it is easy to be disillusioned on 
where we are.
    But 18 months ago, we weren't even talking about this 
problem. At least there is now a conversation. These----
    Mr. O'Halleran. I am going to interrupt you because my time 
is running out.
    Mr. Garnaut. Please.
    Mr. O'Halleran. That is the problem. We weren't talking 
about it.
    Mr. Garnaut. That is right.
    Mr. O'Halleran. But I guarantee you we knew about it, and 
we weren't working at it. And I guarantee you, because we knew 
about it, we should have been working on it.
    And the issue of transparency, we have talked about a lot 
today. We haven't defined what transparency means. We have said 
the word, but we really don't know what that means.
    And I yield. Thank you.
    The Chairman. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    I would like to follow up a little bit on what Mr. 
O'Halleran was talking about.
    When Tom Brokaw was on the news, he was not only the 
anchor, but he was the managing editor of his news show. And I 
do not believe that Tom Brokaw would have told America a 
boldfaced lie. Today, it seems that we don't have anchors who 
are also the editors but that the people that are on TV are 
simply repeating what is on a Teleprompter, what their editors 
are telling them to say. And while I think it is worse on the 
television, I think that is also accurate in what happens in 
the print media today.
    And so, General Breedlove, you mentioned in your testimony, 
``Russia took full advantage of this new media landscape.''
    And when we are talking about the weaponization of 
information, information can either be true or information can 
be false. Would it be more accurate to say that it is the 
weaponization of misinformation?
    General Breedlove. Yes, sir.
    Mr. Scott. And then, as you spoke, Mr. Garnaut--is that 
right?
    Mr. Garnaut. ``Garnaut.''
    Mr. Scott. You spoke about how transparency goes a long way 
to solving the problem. And what transparency would do is let 
the American public know what is true and what is false. And if 
it is false, then hopefully it would not have the influence on 
our beliefs that it would have if it was true.
    Mr. Garnaut. Look, just as a former journalist, let me 
defend journalism for a second here. And that is to point out, 
in Australia it has been a handful of journalists who have 
really pushed the issue of foreign interference to the front of 
the agenda. So, over several years, some hard investigative 
work has been done to actually illustrate the problem, put it 
on the front pages, and start to define the harm and to show 
the state connections.
    So media still does have a role----
    Mr. Scott. That may be happening in your country, but in 
America a news outlet is either pro-Obama/anti-Trump or anti-
Trump/pro-Obama. I mean, that is----
    Mr. Garnaut. That sounds tricky.
    Mr. Scott. It is just the way--it is unfortunate. But most 
news outlets in the U.S., if we can call them news--I think 
``media'' is a better way to portray them now, because I don't 
consider them to be news anymore--give just enough truth in 
their story to lead people to jump to the conclusion that they 
want the people to jump to, which creates the chaos.
    So I am very much in favor of journalism. It is the 
editorialism that I think is destroying the credibility that 
our news outlets have with America.
    And if I could, I will quote you from a Pew Research poll. 
And Pew does pretty good polling. 2017, this is just over a 
year ago, Republicans--``Percent of U.S. adults who trust the 
information they get from national news organizations: 
Republicans, 11 percent.'' That means that 89 percent of 
Republicans don't trust the national news. ``Democrats, 34 
percent.'' That means 66 percent of Democrats don't trust the 
national news. And 15 percent of independents trust, so 85 
percent of independents don't trust the news outlets.
    And I would just tell you, I think the loss of journalism 
has been one of the real problems in this country, and the bias 
that is out there. But if it is not the truth, then it is 
propaganda. And as we have seen in Missouri, I think this is 
going to get worse, if the journalists are not allowed to tell 
the truth.
    Which brings me to you, Mr. Lumpkin. You talked about we 
have the information but what we don't have is a conductor. And 
shouldn't the journalists be the conductors? Shouldn't the 
journalists be allowed? What is your thought on the conductor?
    Mr. Lumpkin. You said something at the front end of your 
statement here, is that if it is not truth, it is propaganda. I 
wish it was that easy, from where I sit, and maybe it is just 
from where I was sitting, is that, for example, this to some 
person is a receptacle; other person, it is a bottle of water; 
somebody else, it is a hydration device.
    I mean, that, in conjunction with five different pieces of 
information, or different stories altogether, can shape 
somebody's mental picture of a situation.
    And that is where, I think, the key is. You have to 
understand your audience and what resonates with them and what 
doesn't resonate with them. For example, at the GEC, there were 
some messages that worked really well in a small village in 
Libya that would have no take in Malaysia. Same message, but 
culturally they look at the world differently.
    So messages and information and truth are kind of--they are 
not an absolute. Because all of those things I just mentioned 
about this bottle of water are true. I mean, it just depends on 
what is your perspective and how you look at it.
    And I think that the key is that you have to understand the 
audience you are trying to hit. You need to devise messaging 
strategies that will resonate with that audience. And then you 
have to have a data feedback loop. Did it hit? Did it take? Did 
it move the needle on behavior?
    And behavior change is the one of the hardest things to 
measure, especially in a short period of time. But you have to 
have--it is about data to make sure that you are managing the 
process and the information.
    The Chairman. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    And I want to thank our panel of witnesses for your 
testimony today. And, in particular, General Breedlove and 
Secretary Lumpkin, thank you both for your service, as well, to 
the Nation.
    So, Mr. Lumpkin, if I could start with you, I am a big fan, 
as you know, of the Global Engagement Center, and I believe 
that it really does have a critical role to play when it comes 
to countering messages perpetuated by our adversaries.
    And I know we have talked about the Global Engagement 
Center several times here today, and while I am glad that the 
State Department has finally accepted the allocated transfer of 
funds from the Department of Defense to assist in the effort, 
of course pending congressional approval, I am still worried 
that it is not being utilized to its greatest potential and 
that there now exists a lack of leadership guiding it toward 
success.
    I know that we have to make better use of the Global 
Engagement Center and we have to figure out how we can better 
support its mission. But, domestically, there is no department 
or agency of the U.S. Government tasked specifically with 
protecting the U.S. public from foreign propaganda, and, of 
course, probably rightly so, since we have to be mindful of 
First Amendment protections and such. But there is, again, no 
U.S. public--no one protecting the U.S. from public or from 
foreign propaganda or various forms of information warfare.
    What role do you feel that industry has to play here, and 
what are their responsibilities?
    Mr. Lumpkin. I think that industry does have a role. Again, 
I kind of mentioned earlier a--again, I would love to see some 
sort of veracity scale on what is going out, based on historic 
trends, of whether a news piece or that source is reliable or 
not. That is something that could be done by industry.
    But because of the diverse nature of media in this country, 
whether it is social media, print media, word of mouth, blogs, 
it is very, very difficult to control while protecting privacy 
of the American people as well as those First Amendment 
protections that we have. So, extremely complicated.
    But I do think we are at the point where we need to have 
some serious discussions about the best way to preserve those 
freedoms of Americans but at the same time make sure they are 
getting effective and accurate news.
    Mr. Langevin. So, Twitter announced that they are looking 
to partner with outside experts to improve what they describe 
as the health of their content, with the underlying goal of, 
among other things, cutting down on abuse and manipulation of 
the platform.
    This is on top of several other steps that have been taken 
to date, which include, from what I understand, their new 
initiative to increase transparency of political advertisements 
prior to the elections this fall. Much work of course remains 
to be done still, I believe, but I am encouraged that this is a 
positive step in the right direction.
    But how could the government work to better assist 
companies like Twitter to identify threats from foreign state 
actors who are seeking to engage in information operations 
against the United States?
    I will start with Secretary Lumpkin, but if our other two 
panelists want to chime in as well, I would appreciate it.
    Mr. Lumpkin. I think the first step is have the dialogue, I 
mean, because you have to understand the privacy restrictions 
and privacy goals that each of these social media platforms, 
for example, have with their clients.
    Mr. Langevin. I think the dialogue is important, but it has 
to, I think, go beyond that.
    Mr. Lumpkin. Yeah, no, but I think--when I got to the GEC, 
we had virtually no relationship with some of these social 
media platforms about understanding how they saw the world. I 
think that we can work with them. In fact, if you see some of 
the things that the private sector has done to regulate 
content, whether it is people screening the content or removing 
the hundreds of thousands of Twitter handles that have been 
removed by Twitter, they are doing things. We just have to make 
sure that we are working with them and not against them. Again, 
I think it is just about opening the dialogue at this point.
    Mr. Langevin. Okay.
    Anybody else want to chime in?
    General Breedlove. I would just add, I agree. And I think 
that part of that conversation with these providers is what is 
their intent, what do they see as their responsibility. They 
are taking actions, but those actions are in sort of limited 
ways. And is it their intent to try to begin to ensure the 
veracity of data or content, that would be a good conversation.
    Mr. Langevin. Thank you.
    Thank you, Mr. Chairman.
    I would just say this is really a challenging problem, 
because this is a nation-state attack, and they are using our 
own private companies to carry out those attacks. And they are 
not necessarily the ones that are equipped with being able to 
defend against such a nation-state attack, with all the tools 
of statecraft and power that can be brought to bear. And this 
is a difficult challenge and dilemma that we have to tackle.
    Thank you, Mr. Chairman. I will yield back.
    The Chairman. Thank you.
    Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Mr. Chairman.
    Thank you all for being here.
    This has been an interesting conversation today, to say the 
least. I would like to compliment Mr. O'Halleran on some of the 
things that he had to say today. But it seems to me that our 
own people sometimes don't know what we have until it is gone. 
And today we have an adversary that is a very patient warrior 
in all that they are doing.
    And I found it interesting--I appreciated Mr. Garamendi's 
passionate response to the situation today, but, in my opinion, 
he just played into exactly what they want us to do.
    And I look at the election cycle. For the Russians, it was 
heads, I win, tails, you lose. If Hillary Clinton wins, we have 
destabilized her and criticized her, and if Donald Trump wins, 
then he is not legitimate. They got it coming and going, either 
way.
    And then he took this issue today--and he is a friend. I 
appreciate his passion. But he turned it into ``this 
administration,'' as though this problem just started in 
January of 2017. And let's not forget, Mitt Romney said Russia 
is our biggest geopolitical foe, and he was laughed at. Adam 
Schiff has said the Obama administration response to what was 
going on was inadequate.
    We have to move forward here, folks. Because that type of 
thing, blaming the other administrations or whatever, is not 
going to get us where we need to be today. And that is exactly 
what they want us to be doing.
    And we do need a whole-of-government, Republican and 
Democrat, to go after this issue and bring it more to the 
forefront and America's awareness. Because, you know, we always 
judge a country by how many want in and how many want out. And 
America has usually been the place where people want in, to 
become Americans. Now we have them wanting to come in to 
disrupt America. And I am curious if we are really even looking 
at that.
    But my concern is, you talked about the new normal, 
sanctions would just become the new normal. And my concern is 
their way of life, for Russia and China, perceived as the new 
standard in the world. My question to you is, how does this 
affect our democratic institutions and our rule of law and what 
we consider international norms if they become the standard 
bearer of what is supposed to be normal, as opposed to 
democracy?
    Mr. Garnaut. Can I just comment on the importance of 
something you raised there? And that is, I think in Australia 
we have made some progress in this respect: the importance of 
establishing a consensus about the nature of the problem and 
the principles that inform and underpin your response.
    And so, one, democracy is under attack. You know, that is 
the core of our systems, our sovereignty. Two, we will defend 
it against interference from all comers, whether it is Russia, 
or China, or Iran, or ISIS.
    And once you have established, you know, a firm consensus, 
then you can start building your resilience strategy. But until 
you have your consensus, you are just groping in the dark and 
it is all over the place.
    Dr. Wenstrup. Thank you.
    Any other comments?
    Mr. Lumpkin. I do.
    I know the name we usually use for this is ``hybrid 
warfare.'' I prefer the term ``modern warfare,'' because this 
is what we are looking at. This is not just, you know, a slice 
in time; this is what we are looking at in a hyperconnected 
world. So we have to develop strategies that are layered, 
comprehensive, that transcend elections, that do all of these 
things to protect, again, our national security and the 
American people.
    But this is not going away. As social media and new media 
platforms iterate, we are going to see this morph, shift, and 
change. And we can either be chasing our adversaries--I would 
like to catch up with them now, let alone surpass them. But we 
need to put some more effort here.
    Dr. Wenstrup. General.
    General Breedlove. Just very quickly, I am in violent 
agreement with the last couple of things you said. It is really 
about them attacking Western institutions, democratic values, 
democratic nations.
    And as was said in a couple of responses, they are in on 
both sides in a lot of these, because it is not really about 
one side or the other winning. It is about causing disarray and 
loss of confidence in the things that our citizens need to be 
confident in.
    Dr. Wenstrup. Thank you.
    I yield back.
    The Chairman. Ms. Gabbard.
    Ms. Gabbard. Thank you, Mr. Chairman.
    Thank you, gentlemen.
    General Breedlove, you talked about, in your opening 
remarks, a few examples of American interference in foreign 
elections in the past. To add to the examples that you gave, 
there was a study that was released at the end of 2016 
documenting 81 elections in 47 countries between 1946 and the 
year 2000 where the United States either overtly or covertly 
sought to influence the outcome of elections in these countries 
and were successful more often than not. And this doesn't 
include any of the CIA or military regime-change overthrows 
that also happened in addition to this.
    So, you know, as recent as the Iraq war--during the Iraq 
war, we paid millions of dollars to plant propaganda articles 
in Iraqi newspapers; sought to influence Russia's elections in 
1996.
    I say all this to raise the question about, if someone 
turns on cable news today, and to hear a lot of the 
conversations here, one would think that Russia's actions in 
2016, this is the first time this has ever happened, and that 
the United States does not have the history that we do with the 
tactics that we have and may continue to use.
    So my question is, how should anyone take the issues that 
you are raising and the attacks that you are citing in any 
context other than the historical context that exists?
    General Breedlove. So, ma'am, you made the point that I was 
trying to make in my opening statement, that I am not surprised 
and I don't think anyone in America should be surprised that 
Russia tried to influence our election, because, as you have 
aptly described, we have been into that business in the past.
    And I would like to join Mr. Lumpkin's remarks, in that 
this word ``hybrid war'' I don't think gets it. It makes it 
sound new and exciting, and it is really old tools used in new 
ways.
    And what I didn't say well in my opening statement is the 
thing that surprises me the most is the boldness that Russia 
believes it can have in our spaces, that they can do these 
things and absolutely get away with them.
    Ms. Gabbard. Have we lacked that boldness in U.S. actions 
in other countries?
    General Breedlove. As I said, I am trying to open the 
conversation----
    Ms. Gabbard. Sure.
    General Breedlove [continuing]. Beyond the election, to all 
of the elements of national power: targeted assassinations, 
SCADA [supervisory control and data acquisition] attacks, 
information attacks, elections.
    So I guess what I am trying to say is there is a broader 
attack on us than just the election piece. And we need to be 
examining that in a holistic view and then, again, I think, 
replying in a holistic way.
    Ms. Gabbard. Thank you.
    You know, Mr. Garnaut, you talked a lot--obviously, you 
focused a lot on China, on China's actions, both in Australia 
but generally, and in different ways that they are seeking to 
influence policies, elections, views, et cetera.
    Why--and, you know, whether it is you or General--and any 
of you who would like to answer this--why is it that, again, 
all we hear about is Russia's actions generally if you turn on 
the news, whereas there are countries like China, like Saudi 
Arabia, like Qatar, and other countries who, you know, purchase 
TV ads, who fund think tanks here in Washington, who, you know, 
who fund institutions in our universities, seeking to achieve 
that same objective? Why is it that Russia's actions stand out 
from all of the rest that have been going on for quite some 
time?
    Mr. Garnaut. That is a great question. And I think one 
answer may be that because China is very good at it. They put 
an enormous amount of effort into making sure we don't talk 
about what it is doing. So if you look at the pattern of 
influence and interference, a lot of it is about suppressing 
contrary voices in our systems, you know, shutting down 
conversations about the nature of the Chinese Communist Party 
and what it is doing, while nurturing others.
    And it is quite--and unlike Russia, where Russia seems to 
be, you know, as much for a good time rather than a long time, 
the Chinese are strategic and patient and they set down 
foundations of organizations, very consistent narratives over a 
long period of time, so often it is quite incremental in the 
way that China behaves, whereas Russia tends to do these kind 
of focused, sharp kind of strikes. So very different 
methodologies.
    But you could argue that--but it doesn't mean that China is 
less important. You know, I think that we just failed to 
recognize a lot of what activity has been going on, and that 
needs to change and it is starting to change, certainly in 
Australia, and starting to change in the United States.
    Ms. Gabbard. Thank you.
    The Chairman. Mr. Byrne.
    Mr. Byrne. Thank you, Mr. Chairman.
    Gentlemen, yesterday, China approved a new broadcasting 
entity called Voice of China, which, obviously, is mimicking 
the Voice of America. And they are doing that to strengthen the 
Chinese Communist Party's ability to shape public opinion and 
to project a certain positive image around the world.
    Do you see this as a tool for China to use to gain 
influence globally? Are you concerned by it? If you are 
concerned by it, what should we be doing about it? I know it is 
pretty new, but it is something we ought to talk about.
    Mr. Garnaut. Can I just jump in quickly? So we are talking 
there about an overt propaganda platform. So in the kind of the 
tri-color spectrum, the black, the gray, the white, this is 
white.
    Now, on its own, I think propaganda is not the main focus 
of our concerns, but when it becomes a problem is when it is 
mixed with covert and deceptive work to spread. You know, the 
channels of distribution are really important. So rather than 
worry about the contents so much, is how is it penetrating our 
societies, and then I think you will find a lot of the black 
and the gray operations that we should be focused on, if that 
makes some sense.
    Mr. Byrne. Do the other two gentlemen want to comment on 
that?
    General Breedlove. No.
    Mr. Byrne. One of the things that some of us who have 
traveled to China, and certainly are trying to watch it, are 
observing is that a country that heretofore had been holding 
itself back is now becoming extremely aggressive. Certainly, 
there is some tie between that and the recent decision by the 
Chinese Congress to give unlimited tenure to President Xi 
Jinping.
    Should we expect for him and for the Chinese Communist 
Party to further these activities to use propaganda, whether it 
is white, gray or black, around the world and particularly here 
in the United States?
    Mr. Garnaut. Well, the short answer is yes. We have seen a 
massive intensification of Chinese covert and deceptive 
operations, and that has been led by Xi Jinping, so we are in a 
new era. You know, I think that this pattern has become--has 
been becoming increasingly clear since probably the tail end of 
2013. So this is a 4- or 5-year process. And I can't see any 
reason why that process of intensification won't continue 
perhaps for the duration of his tenure, which might be a very 
long time.
    Mr. Byrne. There has been some discussion already today 
about the Confucius Institutes. In some places, they are 
providing some more cultural information on college campuses. 
They have at least a quasi-legitimate role to do that, along 
with other countries that do that.
    How do we know when the Confucius Institutes go from a 
legitimate activity to something that is illegitimate? And when 
we know about it, what do we do about it, in a democracy with 
rights to free speech, free association, like the United 
States?
    Mr. Garnaut. Look, I think when we see examples of behavior 
in the black, of shutting down free speech, then we actually 
have to be really, really tough. And if it is a pattern, then 
we should hold the system responsible. At the moment, I think 
up until now, it has been a very permissive environment. We 
haven't tracked how the responsibility--Confucius Institutes 
and other foreign-funded institutions have been used to stifle 
debates elsewhere in the universities. I think we have got to 
be much tougher when we catch it.
    Mr. Byrne. Well, I would just say, Mr. Chairman, I know 
there has been a lot of talk in America the last year or so 
about Russia and what Russia is trying to do to influence 
things in the United States and interfere with the operation of 
our society and our government, but I would say that I am 
equally concerned about activities from China. And I hope that 
in some of our politically driven attention to what Russia is 
doing, which is valid that we should pay attention to that, 
that we don't lose sight of similar and, I would say, equal 
activities on behalf of China to try to influence and disrupt 
American life and our American political institutions.
    And so I appreciate all three of you and your perspectives 
on this. Hopefully, we will continue to study this. And I yield 
back.
    The Chairman. Dr. Abraham.
    Dr. Abraham. Thank you, Mr. Chairman.
    I think we all agree that this hybrid or modern warfare or 
whatever we want to call it, is certainly not a new concept. I 
would think that the Canaanites would consider the trumpets 
that Joshua and the Israelites blew as hybrid warfare in their 
time. And I would postulate that in a few years, with quantum 
computing and the super computers that I am told China now has 
the fastest of, the discussion we are having today about the 
hardware, the fiber optics that are being used, will be 
obsolete, and we will be talking about a completely different 
set of dynamics and metrics as to how to combat this.
    You know, I will take exception to some things that have 
been said about the President and the present administration 
being asleep at the wheel. I think this President has, for the 
very good thing, been able to call out what we call fake news, 
whether it is domestically or foreign, and this highlights 
where we have gone as a country, unfortunately, as to looking 
at how we receive misinformation or truthful information.
    Secretary Lumpkin, to your statement that that bottle of 
water will be perceived differently from Malaysia, Syria, 
wherever you want to go, but, in fact, of all the things it may 
be, it may be a receptacle, it may be this, it is still to--it 
is still at least a bottle of water to everyone when it is 
front and center. So that--and I agree with you and to your 
statement.
    Mr. Garnaut, I also agree with you that, certainly, some in 
our media have been co-opted by some nefarious governments, 
either state or non-state actors. Unfortunately, I don't see 
that changing, unfortunately. I totally agree that we need 
transparency in our government. We certainly have, I think, 
that, and we certainly need it more in the foreign fields, in 
the foreign actors to--I don't think that is going to happen 
either, unfortunately. But we have got space wars that are 
fixing to happen. We have things that will start occurring that 
we couldn't even think of 15 years ago, probably 10 years ago.
    So I guess my question is, in my 2\1/2\ minutes left, we in 
the United States, we welcome, we actually encourage foreign 
development, foreign investments in our products. We have 
companies that are now owned by China and other foreign 
governments that have knowledge and they have direct access to 
some of our most technologically advanced equipment.
    So my question to each of you, quickly, can you give me 
concrete examples of where this commercialization of foreign 
investment has directly hurt us in the national security level?
    General, I will start with you.
    General Breedlove. Sir, so I alluded earlier to what I 
think is the real issue, and that is not through legitimate 
means, as you have talked about owning, but the exfil of 
commercial proprietary data around our most important systems. 
That is what worries me the most.
    I do have a little more confidence in committees, in DOD 
and others, like the LO/CLO [Low Observable/Counter-Low 
Observable] committee that protects our secrets. And I think it 
is a fairly sophisticated system. I am worried about what you 
said, but I am much more worried about the illegitimate exfil 
of data.
    Dr. Abraham. Mr. Garnaut.
    Mr. Garnaut. Just briefly, I think we have underestimated 
the level of sophistication and organization of a lot of 
foreign-sponsored technology transfer programs. It is--so cyber 
is obviously a big part of it, but also the networks of 
scientists, how they link back up with foreign governments. We 
just haven't had our eyes on the ball. And I know that Congress 
and other institutions in the United States are now kind of 
more alert to the upstream technology companies being sort of 
purchased by state-driven actors. So I am confident that there 
is at least movement in the right direction in this field.
    Dr. Abraham. Mr. Secretary.
    Mr. Lumpkin. I have nothing to add. Thank you.
    Dr. Abraham. Okay. And the only thing I will add in my last 
few seconds is that, General, I agree with you that, you know, 
a lot of these things are intangible, at least in conceptual 
ability. I hope as a Nation we can unite against this. 
Unfortunately, unless there is physical damage and physical, 
you know, human life at stake, I just, unfortunately, don't see 
that happening, and that is very unfortunate.
    And I yield back, Mr. Chairman.
    The Chairman. Mr. Bacon.
    Mr. Bacon. Thank you.
    Thank you, gentlemen, for being here. And I have got to say 
for the record that it was an honor to serve under General 
Breedlove's command, one of the finest bosses, commanders, 
leaders I have ever met. And so it is great to see you back 
here today, sir.
    It is clear to me that we are under attack in a different 
way, and we have to be clear with our citizens with that. It is 
imperative that we not make this a partisan matter. This should 
be a unifying thing. We are under attack. And I think we should 
just agree on making it clear that the Russians were trying to 
undermine our election and our--create discord. They were going 
after our election systems. We need to analyze that to figure 
out how do we defend better, make it more resilient, to give 
our citizens more confidence.
    It is clear that they are trying to penetrate our energy 
grid and our financial sector. The next December 7 won't be 
planes or torpedoes coming into Pearl Harbor, it will be 
preceded by rolling blackouts or collapse of financial sector 
because of a cyberattack. And we just got to realize this. So 
we need to work now to make these systems more resilient.
    It was clear they were trying to create discord and divide 
us, and I think we have fallen for it. We keep falling for the 
bait and beating each other up. And yet we need to know--we 
need to be unifying and making it clear what the Russians are 
doing. And it is saddening to see that we have been taking the 
bait and we take the bait every day attacking each other, when 
it is actually what--that is what the Russians want. And I 
think transparency and making that clear would help.
    I think on the good side, I think the President has made 
clear in the National Security Strategy that Russia is a 
primary threat. And I think our defense budget that we are 
hoping to get done here real soon makes that clear too with our 
10 percent increase in spending.
    So my question at this point is, what do you think their 
goal is? I mean, we know that they are trying to create 
discord, but that is a means to an end. So what is their end? 
What is the purpose of the discord and the partisan divide?
    General Breedlove, thank you.
    General Breedlove. Right back at you, sir, about your 
experience as a commander. Thank you.
    So let me, as I think my colleague tried to do, give the 
press some relief. What we do now see is that institutions in 
America, and the press, universities and others, think tanks 
all around the country, are beginning to speak to what has been 
happening for some time. It has been a slow awakening, but 
people are now understanding, primarily, what Russia is doing, 
less so what the PRC [People's Republic of China] is doing.
    But so I think we need to not be hypercritical, because 
folks are beginning to wake up to this. And that is the most 
important thing. We need to reach my brothers and sisters in 
small-town Georgia with this message so that they understand 
what is going on. And as I have said just before, I really 
believe that while they do have some short-term goals to try to 
push forward one or the other of approaches, it is really about 
destroying the confidence in America and American democracy, I 
think, in the endgame.
    Mr. Bacon. Do you think it is also maybe a goal to give 
them a freer hand with their neighboring countries? You know, 
what they are doing in Ukraine. If we are divided here, it is 
harder to come up with a unified response to other matters 
internationally.
    General Breedlove. So now I would answer sort of in the 
role of the former EUCOM and NATO commander. Clearly, they 
wanted to find cracks in our alliance, expand those cracks, 
live in those cracks, to destroy a unified response by the 
alliance.
    Mr. Bacon. Would you say we are in a Cold War now or is 
that an appropriate term?
    General Breedlove. I think we are in a warm war.
    Mr. Bacon. A warm war.
    Any other comments from our two panelists?
    Mr. Lumpkin. It takes time to establish audiences. So you 
want to establish an audience well before you need or want to 
use it. You need to build the tentacles, you need to have the 
infrastructure; it takes time. So I think what we are seeing, 
in my view, is that not what is--what today is a prelude to 
something in the future, I just can't tell you what that is.
    Mr. Bacon. One of the things, it seems to counter what they 
are doing. We need to see what are their weaknesses. We know 
they are very dependent on the energy sector. They are very 
concerned about what we are doing in the Baltics and Poland. It 
just seems to me that there are some leverage points that we 
also have that we need to be exploring more aggressively.
    But any comments with that before I----
    General Breedlove. In 15 seconds, I would say we need to be 
intellectually honest enough to know that there is two sides to 
every story. And we need to understand what is motivating the 
Russian leadership, and I am not sure that we are very good at 
that.
    Mr. Bacon. Thank you. Mr. Chairman, I yield back.
    The Chairman. Ms. Cheney.
    Ms. Cheney. Thank you very much, Mr. Chairman. And thank 
you to all the witnesses. This has been very enlightening.
    You know, the first thing I would say is, I think there is 
general bipartisan agreement you have heard, for the most part, 
on the committee about the threat, but I think it is really 
important for us to recognize that the strength of our system 
is debate and the strength of our system, you know, the sort of 
explosion of different sources of information is not a 
negative. And I certainly, frankly, personally, wouldn't want 
to return to a time--I am not sure a time ever existed, 
frankly, where there was one source of information. And I do 
think that our adversaries have been genius in many ways at 
exploiting what is a strength, but people ought to have the 
ability to choose from different sources of information and not 
expect that every single source is going to be some sort of, 
you know, approved, verified version of the truth.
    My question, though--my first question is for you, General 
Breedlove. You know, we are very concerned--I am very concerned 
that the administration has not issued--does not have any sort 
of a cyber policy, even though this committee has called for 
it. It is crucial. I am not sure how we move forward without 
that. But it seems to me that we have got to be in a position 
where we are not just thinking about what is our response to 
these attacks, but we are talking about deterrence, and that 
requires some kind of a template. And a template that says, 
look, there is a public diplomacy piece of this, there is an 
information piece of this. We need to be spreading the message 
about the importance of freedom and democracy. But there has 
got to be a line someplace where it becomes an act of war 
against us, an attack on the power grid, an attack on our 
election process.
    So my question is, first of all, can you be a little bit 
more specific about where that line is? And, secondly, when you 
talk about an all-of-government approach, could you be more 
specific about the deterrent piece of this in terms of what are 
the kinds of things, even from the perspective of a declaratory 
policy, that we would be, you know, saying to the Russians, to 
the Chinese, you step over this line, these are the kinds of 
responses you will meet from us?
    General Breedlove. So thank you for the question, ma'am. I 
would just say that I don't label just this administration as 
not having these policies, these spanned administrations. We 
have been crying for certain policies since the first attack in 
Crimea, Ukraine, and other places. So these are things that I 
think all governments, regardless of which administration is 
running----
    Ms. Cheney. There is just one in the office now.
    General Breedlove. Right. We need these things in the tools 
of our soldiers, sailors, airmen, and Marines and others as 
they respond.
    I have sort of been boring today by saying all-of-
government response. We tend to, as I said, do economic things 
with Russia and military things in the Middle East. And I think 
that we need to sit down and be more direct about asking our 
interagency governmental process to bring diplomatic, 
informational, military, and economic tools in each case, and 
for each country there are different responses.
    Ms. Cheney. But would you be in favor, for example, 
General, of saying, you know, that any of our adversaries, no 
matter who it is, a particular kind of attack, they ought to 
expect that that will be met with a particular response from us 
that may or may not be in kind?
    General Breedlove. I do believe that we need to understand 
how to deter. I am not a huge fan of red lines, because when we 
draw a red line and then we don't stand behind it, it is 
catastrophic. And so I would be careful in how I did that. But 
deterrence is in the mind of those deterred. It is less about 
writing something on a piece of paper. And we need to make sure 
we understand what gives Mr. Putin cost so that we can deter 
him.
    Ms. Cheney. Mr. Lumpkin, could you address this issue as 
well in terms of what are the kinds of things that would be 
most likely to deter action, and do you think that there is a 
particular line in terms of the kinds of actions against us 
that we ought to be focused on deterring?
    Mr. Lumpkin. Yeah, I think it goes back to General 
Breedlove's comment, you know, it depends. And it depends on if 
we are talking about Russia, you are talking about China, you 
are talking about the Iranians, each one has different points 
and places that pressure could be applied to have the outcomes, 
whether they are broad or very narrow to achieve. But what you 
do have to have is a process to make sure that you don't get 
locked into something you can't get yourself out of ultimately 
as you design these strategies for specific countries.
    Ms. Cheney. Thank you. I yield back, Mr. Chairman.
    The Chairman. Mr. Hice.
    Mr. Hice. Thank you, Mr. Chairman. And welcome and thank 
you for this very important hearing.
    And, General Breedlove, thank you for your service and what 
you continue to do at Georgia Tech, and I welcome the students 
as well, although I am a Bulldog through and through. Glad to 
work with you.
    I want to go back to what you were discussing a little 
while ago but didn't have time to get into regarding the 
energy. In your written testimony, you stated that Russia is 
using its vast energy resources to promote the dependence of 
its smaller neighbors and to keep them from turning to the 
West. Could you elaborate a little bit more on that, please?
    General Breedlove. So if I could just use a few examples 
from the Ukraine piece, and it has happened in others. When 
Russia is trying to bring pressure on a government, in 
Ukraine's case, calling in payments early, raising the price of 
the fuel to bring problems, or withholding delivery so that 
households would go cold in a very cold Ukrainian winter. So 
there are lots of tools they use. Russia has an elaborate, as 
you know, pipeline setup in eastern Europe, western Russia, in 
order to be very good at this, moving gas around. And so it is 
a tool they can use.
    And then what I mentioned also in the testimony, in the 
Q&A, is that Russia, of course, is very keen on keeping the 
price of oil up because it is very much an oil-dependent 
economy. And so it attacks into countries like ours to prevent 
ventures like pipelines, fracking, other things, that would 
tend to suppress the price of energy. And so they are very keen 
to try to influence governments like ours in that respect.
    Mr. Hice. Okay. So what about our potential ability to 
export LNG [liquefied natural gas], wood pellets, that type of 
thing? What kind of impact would that have?
    General Breedlove. Much talk about how we might in the 
West, larger than us, Canada and others, be a big part of 
reducing Eastern European dependency on Russian energy. I 
believe it would be a great tool.
    Mr. Hice. Okay. So a great tool on multiple fronts, 
obviously, for the national security of Europe. Is that what 
you are refer--when you say a great tool?
    General Breedlove. And the United States.
    Mr. Hice. And the United States. All right. What other 
methods do we need to be aware of and have on our radar to help 
combat this hybrid warfare, specifically energy?
    General Breedlove. I will get back to you on that, sir. 
Right now, I think that the first and foremost on this is to be 
able to reduce our dependence, and now I am offering Phil 
Breedlove's opinion, to increase our own capacity to create. 
And then to offer to our allies cheap energy that we can 
deliver to reduce their dependence on those that would use its 
course of capabilities.
    Mr. Hice. All right. That sounds like a great plan to me.
    Do either of the others have comments on this?
    Mr. Lumpkin. No.
    Mr. Garnaut. No.
    Mr. Hice. Okay. Thank you very much. I yield back, Mr. 
Chairman.
    The Chairman. Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman. I am going to go 
through pretty quickly because I have seven questions and I am 
determined to get through all of them.
    So the first one is for you, Mr. Lumpkin. Is the State 
Department the correct place to have this conductor? Setting 
aside some of the issues with the Global Engagement Center, do 
you believe that State is the best place for this point person 
to be?
    Mr. Lumpkin. I think he needs to be outside of all 
departments.
    Ms. Stefanik. Outside of all the departments. Okay. So 
what--functionally, how would that work? Would it be similar to 
the DNI in terms of having all the--you know, setting aside 
intel, having the appropriate agencies be a part of that 
process?
    Mr. Lumpkin. I think so. It is the only concert that I know 
that is cross-cutting across all departments.
    Ms. Stefanik. Okay. Within DOD, who is the conductor?
    Mr. Lumpkin. For--I mean, that is a great question, because 
public affairs has a conductor at DOD that it is in the 
information space, and you have military information operations 
that resides oversight at ASD SO/LIC [Assistant Secretary of 
Defense for Special Operations/Low-Intensity Conflict].
    Ms. Stefanik. Right. So I ask that question to highlight 
something that I think we need to focus on. On the Subcommittee 
for Emerging Threats and Capabilities, we have quarterly 
briefings when it comes to CT [counterterrorism] and when it 
comes to cyber operations. And the briefer is able to go around 
the world and say globally what the threats are and what our 
operations are.
    I fear that if we had quarterly briefings, we would not 
have one point person who was able to answer our questions 
region by region by region. So are those models that we should 
use as we seek to tackle IO [information operations]? So what 
we have worked through over the past 14 years on CT, what we 
are currently doing in terms of elevating Cyber Command.
    Mr. Lumpkin. Yeah. I think that the Joint Staff, J-39, 
which is their operation shop that is in information 
operations, should be able to give you and represent what each 
of the combatant commands is doing with regard to information 
operations, keeping in mind that the information operations 
piece supports military objectives.
    Ms. Stefanik. So do you think that is an important kind of 
forcing mechanism in terms of congressional oversight, thinking 
about having quarterly briefings on IO?
    Mr. Lumpkin. I do, and I would recommend it.
    Ms. Stefanik. Okay. What role does Cyber Command have in 
terms of IO?
    Mr. Lumpkin. I mean, they are--because----
    Ms. Stefanik. What role should they have?
    Mr. Lumpkin. Because they are largely in the intelligence 
community, not in the information space, there is a role, but 
it is a narrow niche.
    Ms. Stefanik. General Breedlove, you are nodding your head, 
I would like you to add to that.
    General Breedlove. It was a great question, that is what I 
was nodding my head to. In the end, Cyber Command is more about 
the medium by which information is transferred and how to 
adjust and control and, if necessary, defend and attack in that 
medium. So I was shaking my head as I was trying to think 
through the answer. There is not a good answer right now.
    Ms. Stefanik. All three of you referenced the strategic 
communications messaging strategy when it comes to countering 
ISIS. Can you specifically talk about how this is structured, 
both, you know, who the players are within DOD and State, how 
we work with our allies?
    And then the reason I am asking that question is, if we 
were to identify the top threats in the IO space, I would list 
Russia, China, and potentially Iran, as top three. I would love 
to get your assessment on the specifics of how that is 
structured, what we can learn there, and whether you think 
those three threats are--where we should prioritizing having 
messaging strategies when it comes to those adversaries.
    Mr. Garnaut, do you want to go first on that?
    Mr. Garnaut. Look, if I understood your question correctly, 
but let me just talk about the--so when you talk about Russia 
information operations, it tends to be the military piece or 
the cyber piece and a little bit of the astroturfing of protest 
movements.
    China is in a broader space, and so it doesn't have a 
direct bureaucratic counterpart in our systems, and that is 
part of the problem, right? So we need to create a place where 
it all comes together. And I agree with Dr. Lumpkin, it has to 
be above the bureaucratic systems. But who--we have got to have 
as part of our law enforcement, you know, capability, an 
ability to track united front networking operations, to see it 
spread across all the silos of our systems, and it is much 
bigger than just the military piece or the cyber piece, it is a 
whole of public opinion emphasis.
    Ms. Stefanik. So let me rephrase my question. Since we have 
what you--the three of you have said is a successful strategy 
when it comes to countering ISIS in the information space, do 
we need to come up with threat-specific equivalence when it 
comes to countering Russia, countering China, and countering 
Iran, in terms of our prioritization?
    Mr. Lumpkin. Yes. The way the construct was, is in the 
coalition against ISIS, we had a communications working group 
where we would go and we would meet quarterly, and we would sit 
there and hammer out, you know, the messages that audiences, 
and what--and how we were going to work it against a single 
adversary. And it was an ad hoc group, worked very, very well. 
But I think you have to be focused on who is the adversary and 
what are the outcomes you are looking for.
    Ms. Stefanik. General Breedlove.
    General Breedlove. So what made this coalition and this 
capability successful is that the leadership of our Nation and 
other nations in the coalition gave them the authority, 
responsibility, and accountability to take on the mission. And 
I would argue that that is what we are missing in the 
arrangements with Russia and China. We haven't really given one 
entity, like maybe the Global Engagement Center or some other 
entity that is uber other entities, we haven't given them that 
policy, authority, responsibility, and accountability.
    Ms. Stefanik. Thank you. My time has expired.
    The Chairman. Thank you.
    If you all will indulge me for just a couple of more 
probably brief questions. I am sitting here think--as I listen 
to all of this, I am sitting thinking about all of the effort 
we put into understanding the Soviet Union and the philosophy 
behind it and the tactics it was using around the world. It was 
enormous. And then it all went away. We are starting to 
rebuild, for example, our understanding of deterrence and 
thinking about these things again.
    My simplified question to you all is, from kindergarten to 
Ph.D. level, where are we today at understanding the influence 
operation--I kind of like psychocultural warfare myself. Where 
are we in understanding what is going on to us?
    General.
    General Breedlove. I will start with something, sir, I said 
to you when I was wearing a uniform. We have backed up, and 
probably for right reasons, not at the height of the Cold War, 
but when the wall fell in the early nineties, we had over 
12,000 analysts on Russia. And when I testified to you in 
uniform the last time, we had 1,028. So we had cut our 
capability to look into Russia and understand Russia by 92 or 
so percent.
    And so I would answer that we are back in junior high or 
maybe entering high school, and our intel communities are 
refocusing harvest. There are other things they are doing, sir, 
I think they are on it, but we have work to do.
    The Chairman. Okay.
    Mr. Garnaut. Look, on China, I am not sure that we are at 
kindergarten yet. The amount of analytical capability we have 
got is so small. I can count on my hands the number of experts 
on Chinese influence operations, one of them is in this room, 
up the back, Peter Mattis, Mark Stokes, couple of people in 
Australia. It is thought--it is unbelievably thin, and that has 
got to be a major priority in building up analytical capability 
on Chinese politics, Chinese history, and patterns of hybrid 
warfare.
    The Chairman. Just briefly, based on your experience, is 
there the appropriate exchange between analytic experts here 
and in our most valued allies, like Australia, on this issue?
    Mr. Garnaut. Well, yes. I think the flow of information 
analysis is really quite strong between Australia and the 
United States. This is a topic that comes up often. But we just 
don't have the depth of capability. We don't have enough to 
share at this stage.
    The Chairman. Okay. Mr. Lumpkin, what grade are we in?
    Mr. Lumpkin. I was going to address the Iran issue, and I 
would say we are probably in middle school somewhere.
    The Chairman. In where?
    Mr. Lumpkin. In middle school, junior high as well, just 
because of the number of resources we have against it. It is 
very small.
    The Chairman. I just want to go back at the end to the 
central purpose of this committee, and that is overseeing the 
Department of Defense and the U.S. military. Taking all of your 
points about whole-of-government, the importance of 
intelligence in law enforcement and all of that, can you 
provide just a few comments on the role of the United States 
military in dealing with the problems that we have discussed 
today?
    General Breedlove. I don't want to pump sunshine, but I 
would offer to you that there are some really brilliant people 
working hard on this issue. And I have absolute trust and 
confidence in Joe Dunford and in our Secretary of Defense, 
because I have watched them, served with them, et cetera, over 
the years. And I know that inside of the Joint Staff, General 
Dunford is doing some work on trying to reorganize around 
Russian issues. I led one of those efforts in uniform. And 
Harry Harris, as the commander of PACOM [U.S. Pacific Command], 
led a similar issue as we looked at China. And building a 
broader rubric under which to address these than just the 
combatant commanders, and reaching out in those processes to 
other governmental agencies to bring them in.
    So, sir, I am encouraged by what I see inside of our DOD 
and our uniform military services on how they are approaching 
this.
    Mr. Lumpkin. And, sir, the Department of Defense is 
carrying a lot of water on this front. They are carrying a lot 
of water for the interagency. But everything can't be tied back 
to a military objective, and that is where we fall short. Our 
gaps and seams are massive. And the GEC, frankly, and during my 
tenure, would not have been functional at all if it wasn't for 
the detailees that came over from the Department of Defense 
because the positions themselves weren't resourced within the 
building.
    So, again, I think the U.S. Government's efforts are 
maturing, but the Department of Defense is doing a lot of the 
heavy lifting for us.
    The Chairman. Mr. Garnaut, in a broader sense, military 
role in this space?
    Mr. Garnaut. Look, I think military systems and defense 
departments have had to pull too much weight here, because--
almost by default because the rest of the system haven't been 
carrying their weight.
    The Chairman. Yeah. I think that's definitely true here.
    Mr. Garnaut. Especially the law enforcement piece.
    The Chairman. Okay. All right. This has been very helpful. 
Thank you all for being here. A lot of insight is gained. We 
really appreciate you all taking the time to be with us today.
    The hearing stands adjourned.
    [Whereupon, at 12:40 p.m., the committee was adjourned.]

     
=======================================================================


                            A P P E N D I X

                             March 21, 2018
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 21, 2018

=======================================================================

   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 21, 2018

=======================================================================

      

                   QUESTION SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. The internet has significantly changed propaganda 
delivery. Social media platforms have lowered the cost of entry, while 
simultaneously increasing targeting fidelity and output. These 
activities are not necessarily cyber operations but do occur through 
cyberspace. The elevation of cyberspace as a domain of warfare caused 
us to rewrite U.S. doctrine, separating cyber operations from 
information operations. Our adversaries do not make this distinction. 
Instead of cyberspace, Russia refers to the information space. How do 
you feel the separation of cyber and IO has affected capability 
integration and effectiveness?
    General Breedlove. [The information was not available at the time 
of printing.]
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. SCOTT
    Mr. Scott. Declassified CIA assessments from 1983 detail specific 
Russian active measures related to the previous generations nuclear 
modernization and missile defense programs. For example, one report 
stated: ``their campaign covers a whole spectrum of activities--from 
overt efforts to create a fear of nuclear war to covert measures, 
including forgeries and disinformation.''
    General Breedlove, how much have Russian tactics changed from the 
Soviet days and adapted themselves to new technologies?
    General Breedlove. [The information was not available at the time 
of printing.]
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BANKS
    Mr. Banks. Mr. Lumpkin, last week, General Mattis met with senior 
U.S. and Afghan officials to discuss the military campaign addressing 
the Taliban threat. Despite the promising intentions of the meeting and 
the note that the Taliban ``may'' be willing to pursue negotiations, 
without the entire Taliban leadership on board or firmly engaged, these 
meetings continue to yield little in terms of measurable success.
    Hon. Lumpkin, how can the U.S. and coalition forces minimize 
Taliban influence on the domestic population so we accomplish the goal 
of winning the people's hearts, minds, trust and commitment to 
democracy?
    What does this influence look like? Is it only brute force, 
extortion, coercion, and intimidation or are there sneakier, softer 
forms?
    Despite the U.S. air campaign ramping up, are there ways to 
minimize Taliban influence that don't endanger American lives?
    Do you suspect any adversarial or competitive states (e.g. Russia, 
China, Iran) influencing against us in the war on terror in this area 
of responsibility? Please detail, if so.
    Mr. Lumpkin. How can the U.S. and coalition forces minimize Taliban 
influence on the domestic population so we accomplish the goal of 
winning the people's hearts, minds, trust and commitment to democracy?
    The lack of infrastructure and strong central government in 
Afghanistan makes technical influence methods largely ineffective. 
Technical influence delivery methods to include television, radio, and 
social media are not viable methods of influence when much of the 
population neither has access nor the infrastructure to receive such 
means of communication. Highly successful influence operations cannot 
be achieved in Afghanistan without a much larger commitment by U.S. and 
Coalition forces operating with extended horizons.
    What does influence look like? Is it only brute force, extortion, 
coercion, and intimidation or are there sneakier, softer forms?
    Influence is dependent on the targeted audience. Variables like 
audience culture, size, and available infrastructure must be taken into 
consideration. Many variables must be factored into creating a discrete 
program to achieve very specific goals against a targeted audience. The 
most effective methods of influence do not consist of brute force, 
extortion, coercion, and intimidation. Subtle influence methods where 
the audience does not overtly recognize that they are targeted are the 
most effective methods.
    Despite the U.S. air campaign ramping up, are there ways to 
minimize Taliban influence that don't endanger American lives?
    No. American lives will be endangered as long as we continue 
operations in Afghanistan. It is the nature of military operations 
during open hostilities or low intensity conflict.
    Do you suspect any adversarial or competitive states (e.g. Russia, 
China, Iran) influencing against us in the war on terror to this area 
of responsibility? Please detail, if so.
    Indeed there are adversarial or competitive States that are 
actively influencing both the Taliban and general population in 
Afghanistan. Afghanistan's neighboring States are actively conducting 
direct and indirect influence operations in the country. This key 
influencing neighbors of Afghanistan are Iran and Pakistan. Each is 
conducting influence operation to achieve their own specific goals.
    Mr. Banks. Mr. Lumpkin, thank you for your service as well as for 
your frank and hard-hitting testimony. I agree that our adversaries 
have taken advantage of the U.S. rule of law and order with their 
disregard for any adherence to international norms of conduct. Your 
assessment of the Global Engagement Center (GEC) is helpful as well.
    How do you envision a GEC with the right authorities and 
capabilities, works within the law, and is still nimble enough to 
outpace strategic competitors, but also doesn't create another 
bureaucracy?
    While the Director of National Intelligence has a number of 
authorities and duties as the principal intelligence advisor to the 
President with a well-defined intelligence community, the stakeholders 
within the ``information environment'' are not as well defined across 
the U.S. Government. How well defined the stakeholders in the 
``information environment'' in law? If they are not well-defined, what 
is the remedy?
    How do you envision this future GEC working in conjunction with the 
National Security Council and Staff? How would you delineate 
responsibilities between the two?
    Mr. Lumpkin. How do you envision a GEC with right authorities an 
capabilities, works within the law, and is still nimble enough to 
outpace strategic competitors, but also doesn't create another 
bureaucracy?
    The GEC should be orchestrating the information activities in the 
federal government and not actually conducting information operations 
themselves. A narrow charter will limit bureaucratic growth and allow 
for agility. At the same time, Congress should be actively involved in 
providing strong and robust oversight to ensure that the GEC has the 
correct capabilities in the ever-evolving information environment.
    While the Director of National Intelligence has a number of 
authorities and duties as the principal intelligence advisor to the 
President with a well-defined intelligence community, the stakeholders 
within the ``information environment'' are not well defined across the 
U.S. Government. How well defined are the stakeholders in the 
``information environment'' in law? If they are not well defined, what 
is the remedy? 
    I strongly recommend Congress conduct an ``information 
environment'' review of both the oversight structure and laws 
surrounding the key elements to include Public Diplomacy, Public 
Affairs, and Information Operations. Each has unique laws and policies 
as well oversight structure. The means of communication and influence 
have drastically evolved over the past twenty years but the laws and 
governance structure have failed to keep pace.
    How do you envision this future GEC working in conjunction with the 
National Security Council and Staff? How would you delineate 
responsibilities between the two?
    I believe the GEC Director should be both Senate confirmed and a 
member of the National Security Council. Like the Director of National 
Intelligence, this would provide a structure for open and full 
interoperability between the GEC and National Security Council.

                                  [all]
</pre></body></html>
